<html>
<title> - CONTRACT SUPPORT COSTS WITHIN THE INDIAN HEALTH SERVICE AND THE BUREAU OF INDIAN AFFAIRS (PART II)</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
CONTRACT SUPPORT COSTS WITHIN THE INDIAN HEALTH SERVICE AND THE BUREAU 
                      OF INDIAN AFFAIRS (PART II)

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     AUGUST 3, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-52

                               __________

           Printed for the use of the Committee on Resources

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources
                                 ______


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 60-802                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held August 3, 1999......................................     1

Statement of Members:
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Allen, W. Ron, President, National Congress of American 
      Indians, Washington, DC....................................    22
        Prepared statement of....................................    25
    Gover, Hon. Kevin, Assistant Secretary of Indian Affairs, 
      U.S. Department of the Interior, Washington, DC............     5
        Prepared statement of....................................     7
    Manumik, Paul, Chairman, YKHC................................    55
        Prepared statement of....................................    55
    Miller, Lloyd Benton, Attorney...............................    57
        Prepared statement of....................................    58
    Sullivan, Richard G., Senior Negotiator, Division of Cost 
      Allocation, U.S. Department of Health and Human Services, 
      Washington, DC.............................................     8
        Prepared statement of....................................     9
    Thomas, Hon. Mary V., Governor, Gila River Indian Community, 
      Sacaton, Arizona...........................................    28
        Prepared statement of....................................    30
        Additional statement by..................................   107
    Trujillo, Michael H., Director, Indian Health Service, 
      Rockville, Maryland; accompanied by Michael E. Lincoln, 
      Deputy Director, IHS; Carl Fitzpatrick, Division of 
      Financial Management; Douglas Black, Office of Tribal 
      Programs; and Ron Demaray, Director, Self Determination 
      Services...................................................    10
        Prepared statement of....................................    11
        Additional material submitted for the record by..........    86
    Williams, Orie, Executive Vice President, Yukon-Kuskokwim 
      Health Corporation, Bethel, Alaska.........................    37
        Prepared statement of....................................    41
    Wells, Jim, Director, Energy, Resources and Science Issues, 
      Resources, Community and Economic Development Division, 
      General Accounting Office, Washington, DC; accompanied by 
      Jeffery D. Malcolm, Senior Evaluator.......................    67
        Prepared statement of....................................    69
        Additional material submitted for the record by..........    83

Additional material supplied:
    Cypress, Billy, Chairman, Miccosukee Tribe of Indians........    97
    Regula, Hon. Ralph, Chairman, Appropriations Subcommittee on 
      Interior, letter from Hon. J.D. Hayworth, Hon. Don 
      Young,and Hon. Dale E. Kildee..............................   117
    Tarplin, Richard J., Dept. of Health and Human Resources.....   104
    Trujillo, Dr. Michael, Director, Indian Health Service, 
      letter from Hon. J.D. Hayworth.............................   118



CONTRACT SUPPORT COSTS WITHIN THE INDIAN HEALTH SERVICE AND THE BUREAU 
                      OF INDIAN AFFAIRS (PART II)

                              ----------                              *


                        TUESDAY, AUGUST 3, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:09 a.m. in Room 
1324, Longworth House Office Building, Hon. Don Young [chairman 
of the Committee] presiding.
    The Chairman. The meeting will come to order.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    The Committee is meeting today to hear testimony on 
contract support costs within the Indian Health Service and 
Bureau of Indian Affairs.
    Under rule 4(b) of the Committee rules, any oral opening 
statements at hearings are limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from 
witnesses sooner and help members keep up with their schedules. 
If other members have statements, they can be included in the 
hearing record, under unanimous consent.
    I would especially like to extend my welcome to all of my 
Alaskan constituents.
    I would especially like to thank everyone for their help 
and support during the debate on the Interior appropriations 
bill on the House floor three weeks ago. With your help, we 
were able to strike out the pro-rata language in the Interior 
appropriations bill for fiscal year 2000.
    We held our first hearing on contract support costs on 
February 24, 1999, accepting testimony from the tribes and the 
administration. This Committee sent additional questions to the 
administration and directed the tribes to meet with the 
administration and to come up with permanent solutions for 
contract support costs.
    Additionally, the Interior Appropriations Subcommittee 
requested a report from the General Accounting Office regarding 
contract support costs to provide Congress alternatives to 
existing problems.
    Today, we will hear the administration's recommendations 
with regard to contract support costs. We will also hear from 
NCAI and their work with the National Policy Work Group on 
Contract Support Costs and their recommendation. Lastly, we 
will hear from the GAO and their final report to Congress and 
what alternatives they recommend with regard to contract 
support shortfalls.
    Once we have reviewed the recommendations, the Committee 
will make a final decision on how to proceed with the permanent 
solution with shortfalls and contract support costs.
    I would offer my many thanks to the tribes for all of their 
input and patience in this important manner.
    I would also like to suggest one thing. The argument that 
we have had with the Appropriations Committee, no one has ever 
addressed the concept of health care. It has always been what 
to do with the money. I believe that our goal should be to 
provide the fine health care that has been done in the past and 
hopefully in the present and will be in the future.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    I would like to extend my welcome to all--particularly my 
Alaskan constituents. I would especially like to thank everyone 
for their help and support during the debate of the Interior 
Appropriations bill on the House floor three weeks ago. With 
your help, we were able to strike out the pro-rata language in 
the Interior Appropriations bill for FY 2000.
    We held our first hearing on contract support costs on 
February 24, 1999 accepting testimony from tribes and the 
Administration. This Committee sent additional questions to the 
Administration and directed the tribes to meet with the 
Administration to come up with a permanent solution for 
contract support costs.
    Additionally, the Interior Appropriations Subcommittee 
requested a report from the General Accounting Office regarding 
contract support costs and to provide Congress with 
alternatives to the existing problem.
    Today, we will hear the Administrations' recommendations 
regarding contract support costs. We will also hear from the 
NCAI and their work with the National Policy Work Group on 
contract support costs and their recommendations. Lastly, we 
will hear from the GAO on their final report to Congress and 
what alternatives that they recommend with regard to contract 
support costs shortfalls.
    Once we have reviewed the recommendations, the Committee 
will make a final decision on how to proceed with a permanent 
solution to the problem of shortfalls with contract support 
cost.
    My many thanks to the tribes for all their input and 
patience on this important issue.

Contract Support Costs Hearing
Briefing Paper
August 3, 1999
    Under Section 106(a)(2) of Public Law 93-638, the Indian 
Self Determination Act, American Indian and Alaska Native 
tribes are authorized to enter into contracts or compacts with 
the Indian Health Service(IHS) and the Bureau of Indian Affairs 
(BIA) to directly administer health care and Bureau of Indian 
Affairs programs previously administered by the two agencies. 
Congress strongly advocated this change to allow tribes to 
provide direct and improved services to their members. Contract 
support costs is directly associated with administering of 
these programs and is based on three cost categories: start up 
costs, indirect costs and direct costs.
        Start-up Costs: One-time costs incurred in planning and 
        assuming management of the programs. Examples include buying 
        computers and training staff.
        Indirect Costs: On going overhead expenses, which are often 
        divided into three groups--management and administration, 
        facilities and equipment, and general services and expenses. 
        Management and administration includes financial and personnel 
        management, procurement, property and records management, data 
        processing, and office services. Facility and equipment 
        includes building, utilities, housekeeping, repair and 
        maintenance, and equipment. General services include insurance 
        and legal services, audit, general expenses, interest and 
        depreciation.
        Direct costs: This category covers such costs as unemployment 
        taxes and workers compensation insurance for direct program 
        salaries.
    However, the consistent failure of Federal agencies (IHS and BIA) 
to fully fund contract support costs has resulted in financial 
management problems for tribes as they struggle to pay for federally 
mandated annual single-agency audits, liability insurance, financial 
management systems, personnel salaries, property management and other 
administrative costs. Congress must remember that tribes are operating 
Federal programs and are carrying out Federal responsibilities when 
they operate self-determination contracts. Tribes, in some instances, 
have had to resort to using their own financial resources to subsidize 
contract support costs. It is the Committees' belief, and the House and 
Senate Interior Appropriations Committees' belief that tribes should 
not be forced to use their own financial resources to subsidize Federal 
contract support costs.
    At the request of the House and Senate Interior Appropriations 
Committees' and Committee on Resources, the Indian Health Service 
increased their contract support costs for FY 2000 by $35 million. This 
will bring the funding level of all tribes to 70 percent of negotiated 
contract support costs. The Congress must remember that in the FY 1999 
Interior Appropriations bill, Congress directed the IHS and BIA to put 
a one year moratorium on new contracts or compacts. This increase of 
$35 million reflects the existing, compacts/contracts plus $15 million 
for new and expanded contract supports costs projected in FY 2000 at a 
70 percent level.
    The Bureau of Indian Affairs pro-rates their indirect costs, 
however, the funding for contract support costs does not include direct 
costs to tribes. For instance, in FY 1999, the BIA plans to continue 
not paying any direct contract support costs associated with programs 
transferred to tribal operation. These direct costs are primarily 
composed of personnel associated costs including retirement, ESC and 
Workmen's Compensation etc. Tribes believe that the direct costs paid 
by the IHS were in fact legitimate and should also be paid by the BIA 
as well. It is also the belief of the appropriations committees that 
the BIA and IHS should remain consistent and utilize similar if not, 
identical systems to pay contract support costs.
    Secondly, the progress toward Congressional intent has not been met 
by the Administration. More than twenty years ago when Congress enacted 
the Indian Self-Determination Act the express intent was that as tribes 
and tribal groups contracted for Indian Health Service and Bureau of 
Indian Affairs programs, there would be a parallel reduction in the 
Federal bureaucracy and more tribal determination of services options 
based on local needs and priorities. Tribal administration of these 
programs has often resulted in substantial additions to available 
health care services and for more efficient operation of programs. But 
the parallel reduction in Federal bureaucracy does not appear to have 
been achieved.
    The General Accounting Office (GAO) was asked to submit a report to 
Congress on the shortfalls of Contract Support Costs needs to be 
addressed. The GAO recently completed its report to Congress and made 
the following recommendations (1) The Secretaries of Interior and 
Health and Humans Services should work together to (a) develop a 
standard policy on funding contract support costs; and (b) ensure that 
the BIA and IHS correctly adjust funding when tribes use provisional-
final rates.
    Additionally, the GAO provided four alternatives for Congress to 
consider (1) Fully fund contract support costs each year; (2) Amend the 
Act to eliminate the provision requiring that contract support costs be 
fully funded at 100 percent of the allowable costs identified by BIA 
and IHS (3) Amend the Act to limit indirect costs by imposing either a 
flat rate or a capped rate; and (4) Amend the Act to eliminate the 
provision for funding contract support costs over and above the program 
base and provide a consolidated contract amount. A representative from 
the GAO will provide testimony at the hearing and answer Members 
questions.
    Lastly, the National Congress of American Indians National Policy 
Work Group on Contract Supports Cost is also submitting its report and 
recommendations to Congress. The Committee directed the tribal 
leadership to work with the Administration to submit recommendations to 
resolve the shortfalls in contract support costs.
    The Committee conducted its first hearing on February 24, 1999 to 
accept testimony from the Administration and tribes and plan to provide 
proposed resolution to the problems associated with contract support 
costs to the House and Senate Interior Appropriations committees.
    Staff contact: Cynthia A. Ahwinona

    The Chairman. With that, I would like to bring up the first 
panel: The Honorable Kevin Gover, Assistant Secretary of Indian 
affairs, U.S. Department of Interior, Washington, DC; Mr. 
Richard G. Sullivan, Senior Negotiator, Division of Cost 
Allocation, U.S. Department of Health and Human Services, 
Washington, DC; Dr. Michael H. Trujillo, Director, Indian 
Health Service, Rockville, Maryland, accompanied by Mr. Michael 
Lincoln, Mr. Carl Fitzpatrick, Mr. Douglas Black, and Mr. Ron 
Demaray.
    Would you please take your chairs?
    Without objection, I would submit for the record Mr. 
Miller, the Ranking Minority Member, his opening comments. 
Without objection, so ordered.
    [The prepared statement of Mr. George Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    Mr. Chairman. This is the second hearing we have held this 
year on the issue of contract support cost under funding. While 
the hearing in February focused on the breadth of the problem, 
today's hearing will focus on solutions.
    In 1975 I supported enactment of the Indian Self-
Determination and Education Assistance Act which authorized, 
for the first time, Indian tribes to contract with the 
Secretaries of Interior and Health and Human Services to 
administer programs and services previously administered by 
those Departments. I have strongly supported each expansion of 
that first Act and expect to have my bill, H.R. 1167--the so 
called ``Title V'' bill--which would make compacting under the 
IHS a permanent program, passed by the full House in September. 
Last year my legislation was bottled up in the Senate based in 
most part to the issue of how to pay for additional contract 
support costs. Chairman Young and I have promised that this 
Committee would look into various solutions and this series of 
hearings is part of that process.
    The current situation where many tribes are only partially 
funded or not funded at all for these costs is intolerable. The 
costs do not disappear if funding is not provided but instead 
tribes are forced to take funds directly from programs and 
services to their members. The simplest solution is to have 
Congress appropriate sufficient funding each year to cover all 
direct and indirect costs related to tribal management of 
services. Both the House and Senate Appropriations committees, 
however, have made it clear that they will not appropriate full 
funding and indeed, have foisted unfair moratorium against new 
contracts and tried to write legislative language to force the 
IHS to immediately distribute funding on the pro-rata basis.
    I believe the most workable solutions will come from Indian 
Country as those most directly affected by the shortfalls. I 
commend the National Congress of American Indians for its work 
group on contract support costs and look forward to hearing 
from its president, Ron Allen, as to their findings and 
recommendations. The NCAI report addresses a multitude of 
related issues and suggests numerous changes to alter the 
existing programs. Additionally, the GAO will testify and offer 
alternatives to the current situation it released through a 
report in June.
    I also want to welcome the rest of the witnesses and 
especially my old friend Governor Mary Thomas of Gila River. 
Thank you all for coming today and I look forward to hearing 
your testimony.

    The Chairman. I believe all of you recognize what that is. 
I do apologize. This is the most frustrating thing, to try to 
conduct a hearing. I will go back and return as rapidly as 
possible. If Mr. J.D. comes back, you have him take it over.
    [Recess.]
    Mr. Hayworth. [presiding.] The Committee will now come to 
order, pending a unanimous consent request from my good friend 
from Washington State.
    The chair would recognize my friend from Washington State.
    Mr. Inslee. In the spirit of great comity for which this 
Committee is renowned, I am going to ask for unanimous consent 
that Congressman Hayworth be permitted to sit on the dais and 
participate in the hearing and to chair the hearing.
    Mr. Hayworth. Is there objection?
    Hearing none, we will continue.
    I would thank my friend from Washington State and would 
point out for the record he is spelling C-O-M-I-T-Y rather than 
C-O-M-E-D-Y, as we are often accused of here in the Nation's 
capitol.
    We have a very serious topic this morning. Our purpose this 
morning is to conduct this hearing on contract support costs 
within the Indian Health Service and the Bureau of Indian 
Affairs. Again, I thank my colleagues, my good friend from 
Washington State, and the fine gentleman from New Jersey who 
joins us here this morning.
    We have with us Panel I, which includes the Honorable Kevin 
Gover, the Assistant Secretary of Indian affairs, U.S. 
Department of the Interior; Mr. Richard Sullivan, the Senior 
Negotiator, Division of Cost Allocation of the U.S. Department 
of Health and Human Services in Washington, DC; and we are 
pleased to welcome Dr. Michael Trujillo, the Director of the 
Indian Health Service in Rockville, Maryland. He is accompanied 
by Messrs. Lincoln, Fitzpatrick, Black, and Demaray.
    I would like to remind the witnesses that, under our 
Committee rules, they must limit their oral statements to 5 
minutes, but their entire statement will appear in the record. 
We will also allow the entire panel to testify before 
questioning the witnesses.
    Before we move to this juncture, let me just simply check 
with my colleagues and see if anyone here has an opening 
statement that they would like to make. If there are statements 
at a later time, we will have them introduced into the record.
    At this point I would ask Mr. Kevin Gover to offer his 
testimony.
    Good morning and welcome to the Committee.

 STATEMENT OF HON. KEVIN GOVER, ASSISTANT SECRETARY OF INDIAN 
    AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Gover. Thank you, Mr. Chairman. Good morning.
    Mr. Chairman, I am pleased to be here today to discuss this 
issue again.
    Since the hearing in February, GAO, BIA, our BIA Tribal 
Work Group on Contract Support Costs, and the national Congress 
of American Indians have all published recommendations 
concerning this issue. While GAO offers four alternatives for 
consideration, it does not recommend one of the approaches over 
the other. The BIA Tribal Work Group and NCAI both recommend 
increased appropriations to fully fund contract support 
requirements and both advocate additional studies or 
benchmarking of tribal needs for contract support.
    In the meantime, the Federal Government is a defendant in a 
half-dozen lawsuits over contract support; and as part of the 
fiscal year 2000 budget, the Appropriations Committees have 
continued both the funding cap on contract support and, in the 
case of the Senate, the moratorium on additional self-
determination contracting.
    Notwithstanding the appropriations limitations, we have 
various decisions from courts and administrative appeals boards 
indicating that the language in the appropriations Act does not 
repeal the mandate in the Indian self-determination Act for 
full payment of support costs. Additionally, some courts and 
the administrative appeals boards have found the United States 
liable for breach of contract, requiring payment of 100 percent 
of contract support costs, notwithstanding any limitations in 
our appropriations Act.
    Finally, the constitutionality of some of the appropriation 
language has been called into question. Now, recent 
appropriations report language for the fiscal year 2000 budget 
indicate that the House and Senate Appropriations Committees 
are not supportive of this commission. Finally, the positions 
appear to be hardening to the extent that some tribal attorneys 
have seriously proposed that I be prohibited from speaking with 
some tribes about contract support problems in the past or any 
proposals for the future. So it is not an exaggeration to say 
that the status quo is intolerable.
    Mr. Chairman, we have tried to identify some basic 
objectives for resolution of this issue.
    The first is quite important to us. It is that the Interior 
Department should not be responsible for funding indirect costs 
associated with grants made by other Federal agencies.
    Second, the current and future costs of contract support 
should be accurately estimated.
    Third, the BIA should fully fund contract support for our 
self-determination awards.
    Fourth, we should put to rest questions tried to be raised 
about the commitment of both the Congress and the 
administration to self-determination contracting.
    And, fifth, perhaps the most important, is the 
Appropriations Committees have to consider the solution 
reasonable.
    One of the primary problems in this entire issue is there 
is no consistency. The administration has not put forward a 
consistent position among all of its agencies. And I am not 
talking about the BIA and IHS but about the dozen or so other 
departments that do a substantial amount of business with the 
tribes. Congress seems to find no agreement between the 
appropriators and the authorizing committees on what the 
government's commitment ought to be, and that puts it in a very 
difficult position.
    Let me just highlight a proposal that we have under 
consideration and that we have put out for tribal comment.
    First, we would recommend, and I should emphasize, Mr. 
Chairman, that I am speaking for myself and not necessarily for 
the entire administration. It seems obvious that we have got to 
require the other departments and agencies who do business with 
the tribes to pay their indirect costs associated with those 
ventures. It doesn't make any sense for the BIA or the IHS to 
be held responsible by law for paying the indirect costs 
associated with grants administered by the Departments of 
Justice Department, Housing and Urban Development, Labor or any 
of the others; yet that seems to be the current state of the 
law.
    Second, within the BIA we are proposing to separate grant 
assistance from contracts. The intent of the Indian Self-
Determination Act was to encourage tribes to take over the 
programs that were administered by the BIA. That is proceeding, 
and we should pay the indirect costs associated with that 
because we always received funds for the associated costs. When 
it comes to grants, though, we had no extra money. Those 
programs would not have taken place if the tribe chose not to 
operate them or contract them, so there were no BIA costs 
associated with those. However, in order to avoid reducing 
commitments that we have already made to try to receive grants, 
we would also propose that they be allowed to retain what now 
is contract support on these grant payments.
    Mr. Chairman, we have some technical recommendations 
associated with that, but the bottom line is that we have got 
to do something. The self-determination moratorium is 
unacceptable. It flies in the face of 25 years of congressional 
and administration policy. It is no solution to the contract 
support dilemma to simply say make no more contracts.
    Mr. Chairman, my time is up. I appreciate the opportunity 
to testify.
    The Chairman. I thank you, Mr. Gover.
    [The prepared statement of Mr. Gover follows:]

  Statement of Hon. Kevin Gover, Assistant Secretary--Indian Affairs, 
                       Department of the Interior

    Mr. Chairman and members of the Committee, I am pleased to 
appear before you today to continue our discussion of the 
issues surrounding the payment of contract support to Indian 
tribes and tribal organizations.

Update

    Since the Committee's hearing of last February, the General 
Accounting Office has submitted its report on contract 
support;\1\ the Bureau of Indian Affairs (BIA)/Tribal Work 
Group on Contract Support Costs completed its review;\2\ and 
the National Congress of American Indians published its 
recommendations.\3\ GAO offers four alternatives for 
Congressional consideration, but does not recommend one 
approach over the others. The Work Group and NCAI recommend 
increased appropriations to fully fund contract support 
requirements and both advocate additional studies or ``bench 
marking'' of tribal needs for contract support.
---------------------------------------------------------------------------
    \1\ ``Indian Self-Determination Act: Shortfalls in Indian Contract 
Support Costs Need to be Addressed,'' (GAO/RCED-99-150), June 1999.
    \2\ ``A Study of Contract Support Costs in the Bureau of Indian 
Affairs and Recommendations for Reform,'' June 1999.
    \3\ ``Final Report of the National Policy Work Group on Contract 
Support Costs,'' July 1999.
---------------------------------------------------------------------------
    In the meantime, the Federal Government is a defendant in a 
half-a-dozen law suits over contract support, and as part of 
the FY 2000 budget, the Senate Appropriations Committee would 
continue the moratorium on additional Self-Determination 
contracting. Based on broad interpretation of the Indian Self-
Determination Act, a court found the United States liable for 
breach of contract, and required the Department to pay indirect 
costs for Interior and other Federal agencies contracting under 
the Act.
    Mr. Chairman, while I recognize the reluctance of the 
Committee to amend the Indian Self-Determination Act, I have 
come to the conclusion that the authorizing committees, 
appropriations committees and the Administration must jointly 
seek a resolution of the contract support dilemma.


Objectives in Resolving Contract Support Funding

    My objective is to reach agreement in the following areas:
        <bullet> We need to develop a reliable mechanism to ensure 
        funding for indirect costs associated with grants made by other 
        Federal agencies;
        <bullet> The current and future costs of contract support 
        should be accurately estimated;
        <bullet> The BIA should fully fund contract support for our 
        self-determination awards within existing resources; and
        <bullet> We should put to rest the questions Tribes are raising 
        about the commitment of both Congress and the Administration to 
        self-determination contracting.

BIA's Option

    Mr. Chairman, with these goals in mind, and considering court 
decisions as well as the recommendations contained in the other reports 
and studies on contract support, we are developing an option that could 
be implemented to resolve the contract support problems that have 
bedeviled us for two decades.
    I will briefly summarize the key elements of the option proposed:

        <bullet> A mechanism must be devised to ensure fair 
        compensation for the indirect costs incurred by Indian Tribes 
        in administering grants awarded by Federal agencies.
        <bullet> Within the BIA, separately identify ``grant 
        assistance'' from Self-Determination awards. The goal of the 
        Self-Determination Act was to turn federally operated programs 
        over to Tribes. There are a number of programs that the BIA 
        funds that were never operated by BIA employees and would not 
        be operated by BIA employees if a Tribe declined an award. In 
        our implementation of Self-Determination, however, we have 
        acted as if every award were a Self-Determination contract, and 
        thus eligible for contract support payments.
        <bullet> For those programs identified as grants, grandfather 
        into the programs the amount of contract support currently 
        obligated for those programs.
        <bullet> For the remaining activities that are actual or 
        potential Self-Determination contracts or Self-Governance 
        compacts, estimate the total cost of contract support if all 
        tribes contracted for all programs and use this information to 
        structure budget requests.
        <bullet> Evaluate tribal requests for payment of certain direct 
        costs.

Conclusion

    Mr. Chairman, working together, I believe that we can fashion a 
contract support proposal that keeps faith with Tribes so that they are 
not penalized for assuming program operations that would otherwise be 
run by BIA employees, while recognizing that not all funds that flow 
through the BIA should be accorded the special status of Self-
Determination awards.
    I would be pleased to answer any questions you may have.

    The Chairman. [presiding.] Mr. Sullivan, you are up next to 
testify. We ask questions after everybody is done.
    I apologize. I just got back in the room. Has anybody else 
testified?
    Mr. Sullivan, you are next. Pull that mike up to you.

 STATEMENT OF RICHARD G. SULLIVAN, SENIOR NEGOTIATOR, DIVISION 
    OF COST ALLOCATION, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Mr. Sullivan. Good morning Mr. Chairman. It is a pleasure 
to come before the House Resources Committee this morning to 
represent the Division of Cost Allocation, Program Support 
Center of the Department of Health and Human Resources.
    My name is Richard Sullivan. I am a branch chief of the DCA 
Washington field office and am here to represent Mr. Charles J. 
Seed, Director of the Division of Cost Allocation.
    The Chairman. Move the mike a little closer, please. I can 
hardly hear you.
    Mr. Sullivan. The DCA is part of the Program Support 
Center, an operating division of HHS, which was established in 
1995 to provide centralized support services for HHS and other 
government agencies.
    The DCA is responsible for negotiating indirect costs 
between the Federal Government and approximately 3,000 
organizations. The negotiations involve more than $12 billion a 
year in Federal program charges from State and local 
governments, universities and colleges, hospitals, and other 
nonprofit organizations. Many negotiations include reviews of 
complex specialized service facilities such as computer 
facilities, libraries, pension funds and labs.
    The DCA is also responsible for resolving audit findings on 
cost allocation plans and indirect cost rates; providing advice 
on accounting matters affecting grant programs; and assisting 
in activities related to improving grantee accounting systems 
and developing government-wide and department-wide accounting 
policies, procedures, and regulations. The indirect cost rates 
HHS and other Federal agencies issue are accumulated centrally 
and distributed to about 35 Federal government activities.
    DCA operates through four field offices in New York, 
Washington, Dallas and San Francisco. Our offices have 
established rates with 14 Indian entities. Seven of these 
entities are subject to OMB Cost Principles for State and local 
governments. They include the Kenaitze Indian Tribe, Mount 
Sanford Tribal Consortium, Ninilchik Village Tribal Council, 
Seldovia Village Tribe, Tanana IRA Native Council, Native 
Village of the Eyak Tribal Council, the Red Lake Band of 
Chippewa Indians in Minnesota.
    There are also seven organizations that are subject to OMB 
Cost Principles for nonprofit organizations. These include the 
Eastern Allution Tribes, Valdez Native Tribe, Eight Northern 
Pueblos Council, Five Sandoval Indian Pueblos, the Inter-Tribal 
Council, American Indian Community House, and North American 
Indian Center of Boston.
    A recent GAO reports states that there are 382 tribes and 
related tribal organizations with negotiated rates. Nearly all 
rate setting is performed by the Department of the Interior. 
DCA currently establishes rates for only 14 of these tribal 
entities and therefore plays only a minor role in this area.
    I would be pleased to respond to any questions that the 
members may have.
    The Chairman. Thank you, Mr. Sullivan.
    [The prepared statement of Mr. Sullivan follows:]

    Statement of Richard G. Sullivan, Branch Chief, Cost Allocation 
            Division, Department of Health & Human Services

    Good morning Mr. Chairman:
    It is a pleasure to come before the House Resources 
Committee this morning to represent the Division of Cost 
Allocation (DCA), Program Support Center, Department of Health 
and Human Services.
    My name is Richard Sullivan. I am a branch chief in the DCA 
Washington Field office and am here to represent Mr. Charles J. 
Seed, Director of the Cost Allocation Division.
    The DCA is part of the Program Support Center, an operating 
division of HHS, which was established in 1995 to provide 
centralized support services for HHS and other government 
agencies.
    The DCA is responsible for negotiating indirect costs 
between the Federal Government and approximately 3,000 
organizations. The negotiations involve more than $12 billion a 
year in Federal program charges from State/local governments, 
universities and colleges, hospitals, and other nonprofit 
organizations. Many negotiations include reviews of complex 
specialized services such as computer facilities, libraries, 
pension funds, and labs. The DCA also is responsible for 
resolving audit findings on cost allocation plans and indirect 
cost rates; providing advice on accounting matters affecting 
grant programs; and assisting in activities related to 
improving grantee accounting systems and developing Government-
wide and Department-wide accounting policies, procedures, and 
regulations. The indirect cost rates HHS and other Federal 
agencies issue are accumulated centrally and distributed to 35 
Federal government activities.
    DCA operates through 4 field offices in New York, 
Washington, Dallas, and San Francisco. Our offices have 
established rates with fourteen Indian entities. Seven of these 
entities are subject to OMB Cost Principles for State and local 
governments. They include the:

        <bullet> Kenaitze Indian Tribe
        <bullet> Mount Sanford Tribal Consortium
        <bullet> Ninilchik Village Tribal Council
        <bullet> Seldovia Village Tribe
        <bullet> Tanana IRA Native Council
        <bullet> Native Village of Eyak Tribal Council
        <bullet> Red Lake Band of Chippewa Indians (Minnesota)
    There also are seven organizations that are subject to OMB Cost 
Principles for nonprofit organizations. These include the:

        <bullet> Eastern Allution Tribes, Inc.
        <bullet> Valdez Native Tribe
        <bullet> Eight Northern Pueblos Council
        <bullet> Five Sandoval Indian Pueblos, Inc.
        <bullet> Inter-Tribal Council, Inc.
        <bullet> American Indian Community House
        <bullet> North American Indian Center of Boston
    A recent GAO report states that there are 382 tribes and related 
tribal organizations with negotiated rates. Nearly all rate setting is 
performed by the Department of the Interior. DCA currently establishes 
rates for only 14 of these tribal entities and therefore plays only a 
minor role in this area.
    I would be pleased to respond to any questions the members may 
have.

    The Chairman. Mr. Trujillo.

   STATEMENT OF MICHAEL H. TRUJILLO, DIRECTOR, INDIAN HEALTH 
    SERVICE, ROCKVILLE, MARYLAND; ACCOMPANIED BY MICHAEL E. 
 LINCOLN, DEPUTY DIRECTOR, IHS; CARL FITZPATRICK, DIVISION OF 
FINANCIAL MANAGEMENT; DOUGLAS BLACK, OFFICE OF TRIBAL PROGRAMS; 
     AND RON DEMARAY, DIRECTOR, SELF DETERMINATION SERVICES

    Dr. Trujillo. Yes, good morning, Mr. Chairman. It is a 
pleasure to be here before this Committee.
    We do have a written statement for the record which was 
submitted, and these are my opening comments.
    Over 40 percent of the Indian Health Service's budget, or 
$1 billion, is allocated to tribal operated programs under the 
authority of the Indian Self-Determination Act. Approximately 
20 percent of this amount, or $240 million, represents contract 
support costs. I believe the contract support costs are 
critical to the promotion of strong, stable tribal governments 
and critical to the provision of quality health care.
    Contract support costs have been certainly the subject of 
much discussion and debate over this last year. In the 1999 
appropriations, the Congress appropriated an increase of $35 
million for a contract support cost to the Indian Health 
Service. The Congress directed that the increases be allocated 
in a manner to reduce the inequity in the distribution of the 
contract support cost in the Indian Health Service and 
instructed the Indian Health Service to continue to work with 
the tribes to develop a long-term solution to this inequity.
    We, the tribes and the Indian Health Service have continued 
to a spend considerable amount of time and effort to carry out 
and strengthen the congressional instructions. Consultation 
with tribes have resulted in the agency adopting the 
distribution methodology agreed to by tribes, and that has 
raised the average of the contract support cost funding level 
in the agency to 80 percent. No tribe is funded below 70 
percent of its contract support cost need.
    We are presently working with the tribes in Alaska to 
determine an appropriate amount of contract support cost 
associated with the tribal takeover of the Alaskan Native 
Medical Center, the largest single assumption of an Indian 
Health Service program to date. We anticipate an allocation to 
Alaska and the distribution of the entire $35 million by the 
end of this month. I believe we have the appropriately 
responded to the direction of Congress, but the allocation has 
certainly not been without difficulty.
    Shortly after our consultation with the tribes was 
complete, we were advised by legal counsel, that is the Office 
of General Counsel and the Department of Justice, that a new 
vision in our congressional appropriation Act prohibited the 
agency from using 1999 appropriations to pay non-recurring 
costs incurred prior to 1999, contrary to what the agency and I 
had intended to do. I have examined and continue to examine 
every possible way to pay these costs, including continuing 
discussion with tribal leadership, which amounts to 
approximately $1.8 million, but it appears that I may be 
prohibited by law--that is congressional language--from doing 
so. I will make a decision on this this coming week.
    As a result of the numerous consultation sessions with 
tribal leaders and representatives of the Indian Health 
Service, they have adopted a revised policy to allocate the 
contract support costs into fiscal year 2000. The policy 
distributes contract support cost increases by a pro-rata 
system designed to further reduce the contract support cost 
funding disparities among tribes within the Indian Health 
Service system. A key element to this joint tribal Indian 
Health Service policy, the tribe's support cost funding will 
not be reduced when that tribe is already underfunded in the 
first place. We also feel our efforts in this regard respond to 
the wishes of Congress.
    Finally, I would like to commend both NCAI and the GAO on 
their recently completed studies of the contract support costs. 
We believe these studies accurately describe the importance of 
contract support costs to tribal governments and this country's 
policy of Indian self-determination. These studies have drawn 
many of the same conclusions that we in the Indian Health 
Service have arrived at.
    In summary, I would to like to emphasize that the Indian 
Health Service and I am committed to uphold, promote, and 
strengthen the principles of Indian self-determination, the 
empowerment of tribal governments, and the government to 
government relationship that exists between Indian nations and 
this country. We continue to be committed to work closely and 
collaboratively with Indian tribal governments, national Indian 
organizations, and the Congress with regard to contract support 
cost issues and to advocate and to assure more appropriate and 
adequate funding to all tribes who contract or compact health 
care services from the Indian Health Service.
    Thank you.
    The Chairman. I thank you, Doctor, for your testimony.
    [The prepared statement of Dr. Trujillo follows:]

   Statement of Dr. Michael Trujillo, Director, Indian Health Service

    Mr. Chairman and Members of the Committee
    Good morning. I am Dr. Michael Trujillo, the Director of 
the Indian Health Service (IHS). Today, I am accompanied by Mr. 
Michel E. Lincoln, Deputy Director, Indian Health Service; Mr. 
Douglas Black, Director, Office of Tribal Programs; Mr. Ron 
Demaray, Director, Self Determination Services; and Mr. Carl 
Fitzpatrick, Director, Division of Financial Management. We 
again welcome the opportunity to testify on the issue of 
contract support costs in the Indian Health Service. As we 
indicated in our testimony presented to the Committee on 
February 24, we believe that contract support cost funding is 
critical to the provision of quality health care by Indian 
tribal governments and other tribal organizations contracting 
and compacting under the Indian Self-Determination and 
Education Assistance Act, Public Law 93-638 (ISDEA, P.L. 93-
638). Since the February 24, 1999 testimony on contract support 
cost, we have continued to work with the authorizing and 
appropriations committees and Tribes to address the ever-
growing contract support cost funding challenge, discussed 
later in this testimony. In addressing this challenge, we will 
collectively ensure that funding for contract support cost will 
not adversely affect funding for other IHS programs, including 
critical services delivered to non-contracting and non-
compacting Tribes.
    Congress appropriated an increase of $35 million for 
contract support costs in the Fiscal Year 1999 Interior 
Appropriations with accompanying committee report language 
instructing the IHS that the increase should be ``used to 
address the inequity in the distribution of contract support 
cost funding in fiscal year 1999.'' Further, the Congress 
directed the IHS, in cooperation with the tribes, to develop a 
solution to the contract support cost distribution inequity 
without the large infusion of additional funding for contract 
support costs. We believe we are close to accomplishing both 
objectives.

Allocation of $35 million

    Based on the Congressional guidance and results of 
extensive agency consultation with Indian tribal governments, 
the Indian Health Service has adopted an allocation methodology 
for the current distribution of the $35 million in the most 
equitable manner given the total amount of the final negotiated 
CSC requests and availability of new funds. For example, the 
new allocation method addresses all those CSC requests 
submitted by tribes that have entered into Pubic Law 93-638 
contract or compacts despite not receiving any contract support 
cost funding for those assumptions. Under the new method, those 
tribes that have the greatest overall contract support cost 
need for all programs administered through self-determination 
contracts and compacts will receive the greatest proportion of 
new CSC funding. We believe that this allocation methodology is 
responsive to concerns expressed by the Congress that the 
Agency address the inequity in contract support funding levels 
of tribes in the IHS system. To date, we have allocated over 
half of the $35 million increase and we are able to fund, on 
average, 80 percent of the total contract support cost need 
associated with IHS contracts and compacts. No tribe is being 
funded at less than 70 percent of their overall contract 
support cost need.
    At present, the IHS is engaged in negotiations with 
representatives of the Alaska Tribal Consortium and the 
Southcentral Foundation over the amount of contract support 
costs that will be allocated to these two organizations for 
their assumption of the Alaska Native Medical Center (ANMC), 
which is the largest single takeover of an IHS program in 
history. Any additional funding from the $35 million increase 
not allocated for the assumption of the ANMC will be 
distributed in a manner that further reduces the disparity in 
contract support costs funding levels.

Revision of IHS Contract Support Cost Policy

    Since 1992 the IHS has had an established, written contract 
support cost (CSC) policy that was developed and implemented, 
in consultation with tribes and tribal organizations. This 
policy addresses many of the issues surrounding the 
determination of CSC needs authorized under the ISDEA and the 
allocation of CSC funds appropriated by the Congress. The first 
policy adopted in 1992 was subsequently revised in response to 
the 1994 amendments to the ISDEA.
    As a part of the 1999 appropriations process the Congress 
expressed their concerns over the inequity caused by existing 
IHS CSC distribution methodologies and directed the Agency to 
propose a permanent acceptable solution to the CSC distribution 
inequity as a part of the FY 2000 budget process. Within days 
of receiving this instruction from the Congress, the IHS began 
the process to develop solutions to these CSC challenges. The 
fact that the tribes, Congress and other stakeholders have 
differing views as to what constitutes ``equity'' was 
immediately apparent at the start of our work. Consequently, 
the tribal and Agency representatives devoted significant time, 
energy, and resources toward addressing the fundamental issues 
of equity and developing solutions within the context of the 
different perspectives of all the key stakeholders. With a 
strong commitment to be as responsive as possible to the 
concerns expressed by tribes, the courts, and the Congress, the 
IHS incorporated the results of the tribal-Federal work into a 
major third revision of the current CSC policy. As an example, 
the new allocation method being utilized to distribute the new 
FY 1999 CSC funds is reflected in the Agency's proposed new 
draft CSC policy.
    The IHS continues to consult and work closely with tribes, 
tribal organizations, and their representatives in the further 
refinement of the proposed revised CSC policy. This is 
consistent with the Administration and Congressional policy to 
support Indian self determination through active consultation 
to ensure that all major policies, like the IHS CSC policy, are 
based on the corner stone of the Indian Self-Determination Act. 
The IHS and the Department are both firmly committed to 
providing meaningful consultation on this issue. For example, 
we have made strides with Tribes to include authorizing 
language in the Tribal Self Determination Amendments to the 
Indian Self Determination and Education Assistance Act (P.L. 
93-638) to explicitly state that contract support funding is 
subject to appropriations and that funds are not to be reduced 
to other IHS programs and activities.
    The IHS has now nearly completed the development of a 
revised CSC policy that we believe addresses the expectation of 
Congress as stated in the fiscal year 1999 appropriation 
committee report. The proposed policy abandons the historic 
approach to the Indian Self-Determination (ISD) Fund and the 
maintenance of a queue system in favor of a pro-rata system 
whereby each eligible tribe with an ISD request receives a 
share of any additional CSC funding proportionate to its 
overall CSC needs. Those with the greatest unfunded CSC needs 
will receive largest share of any increase in available CSC 
funding. Basic to this policy however, is the premise that a 
tribe's CSC funding will not be reduced when that tribe is 
already receiving less than its identified CSC need. This is 
consistent with the statutory provisions of Section 106 (b) of 
the ISDEA. We are also committed to address contract support 
cost administratively, through the revision of out agency CSC 
policy, which includes a provision to better reflect and reduce 
duplications in contract support cost and tribal shares.
    The new policy is much more comprehensive in addressing 
many of the more subtle facets of CSC than prior policy 
issuances. This can be seen in our approach to improved 
projections of CSC needs, a specific concern of the Congress; 
the tracking of CSC shortfalls; and the integration of this 
information into the IHS budget formulation process. We firmly 
believe that the proposed CSC policy takes advantage of all of 
the tools available under the ISDEA to manage CSC in a 
responsible manner. The policy has been drafted in such a way 
as to avoid any future litigation over CSC but this cannot be 
guaranteed. This policy has not been adopted and codified as a 
Departmental regulation in the Federal Register because both 
the IHS and BIA currently may not issue new CSC regulations. 
However, Tribes have from time to time raised the possibility 
of developing joint BIA/IHS regulations for CSC. The Agency 
needs to give serious consideration to whether it is time to 
pursue congressional authorization of a negotiated rulemaking 
process to adopt a final rule concerning CSC. The IHS would 
welcome the opportunity to join with tribes, the BIA, and the 
OIG in such a process, if authorized by the Congress.

Other Contract Support Cost Efforts.

    Recently, the General Accounting Office (GAO) and the 
National Congress of American Indians (NCAI) each completed an 
extensive study of CSC that have been forwarded to the 
Congress. The IHS cooperated fully in the completion of both of 
these studies which we believe accurately describe the 
importance of CSC to tribal governments. These independent 
studies have drawn many of the same conclusions that have been 
reached by the IHS in the course of implementing the ISDEA 
provisions governing CSC. We believe that both of these studies 
provide thoughtful insight into CSC issues. In our view, the 
revised IHS CSC policy is consistent with most of the findings 
and recommendations contained in these reports and we welcome 
the opportunity to work with tribes, the BIA, and the Congress 
in reaching greater agreement amongst all of the varied 
concerns and views.
    Thank you once again for the opportunity to discuss 
contract support costs in the IHS. We are now pleased to answer 
any questions that you may have.

    The Chairman. I understand that Mr. Fitzpatrick, Mr. Black 
and Mr. Demaray are accompanying you to help answer any 
questions that we may ask?
    Dr. Trujillo. That is correct.
    The Chairman. I am a little bit concerned. I listened to 
all three of you, and in my opening statement I made the 
comment that this seems to be a battle about financing and not 
about health care. Financing doesn't guarantee health care.
    I have a unique problem in Alaska, as you are well aware, 
Doctor, that we have--because of your great BIA--declared about 
227 tribes in the State of Alaska. If 227 tribes were to apply 
for a pro-rata funding for health care, what type of health 
care do you think there would be for my Alaskan aid people in 
Alaska?
    Dr. Trujillo. In regards to the numbers of tribes, you also 
have to take into consideration the remote geographic problems 
in regard to the villages and the programs that are there; and 
the cost of that health care and access to health care is 
extremely difficult as well as increasing day by day, as you 
well know. The costs and the population certainly increases. I 
had hoped that as the tribes and the consortiums worked 
together with the corporations that we would be able to have 
increasing access to health care with the tribes and the 
corporations.
    The Chairman. Again, with SEARHC in southeast and, of 
course, with the Bethel Corporation, they are providing 
excellent health care now. If their base was diluted, what 
would be the result for the health care for the people?
    Dr. Trujillo. If funding were to be decreased to any 
particular program, not only to Alaska but those in the lower 
48, there would be difficulty to access.
    The Chairman. So if we had the funding as it is today for 
those two larger--with the hospital in Anchorage, SEARHC in 
southeast and the Bethel hospital, if that retained its present 
status of funding, then it would mean that we need to have more 
money if other tribes would apply for the health care 
capability. Is that correct?
    Dr. Trujillo. The areas for Indian Health Service has 
always been a difficulty of insufficient allocation of fiscal 
resources. I believe the tribes who have managed to administer 
and contract for their programs and now administer direct and 
preventive programs have done an excellent quality job. The 
difficulty has come with insufficient funding not only for the 
program aspects but also for the direct and indirect costs 
which would enable them to do a better job than they are doing 
right now. That is one of the aspects that I hope that we can 
come to some sort of conclusion or direction as to how we will 
cover this increasingly important area of cost for those tribes 
who wish to undertake the management----
    The Chairman. In your testimony, you say IHS has made 
strides with tribes--it sort of rhymes--to implicitly state the 
contract support funding was subject to appropriations. But 
isn't it true, Doctor, that tribes do not agree with that 
position, that they view full contract support funding as a 
legal obligation and that the courts have consistently agreed 
with the tribes?
    Dr. Trujillo. It is my understanding that we would 
certainly--I certainly agree that contract support costs should 
and other costs should be fully funded at 100 percent. The 
difficulty has been now that those costs can be covered by 
appropriate resources that are dedicated for those particular 
areas. Taking program funds from other tribes to pay contract 
support costs from other tribes only dilutes and compounds the 
problems for all American Indians, Alaskan natives throughout 
the Nation, including Alaska.
    The Chairman. Mr. Gover, the one thing in your testimony, 
you state there are a number of programs that BIA funds with 
contract support costs that are, in effect, not self-
determination contract programs which are, therefore, 
ineligible for such costs. You then ask the Committee to amend 
the Indian Self-Determination Act to discontinue this practice. 
If the Bureau wishes to discontinue paying contract support 
costs beyond the requirements of the statute, why doesn't the 
Bureau simply take the appropriate action after thoroughly 
reviewing the matter of the Indian country?
    Mr. Gover. That is a good question, Mr. Chairman. We well 
may do that. I think that we would prefer to proceed with some 
congressional sanction of the approach, but if I have the 
authority to do that, then I certainly will consider that, 
doing that unilaterally.
    The Chairman. My concern is, very frankly, to reopen this 
Indian Self-Determination Act today would not be a very, I 
believe, healthy thing to do, especially with outside forces 
concentrating on the success of certain activities of Indian 
tribes. I think it would probably open them up for some very 
strict scrutiny which would not necessarily be good for the 
tribes and probably be wrong.
    I can't control all of that. I am very reluctant as 
chairman of this Committee to open that Self-Determination Act. 
So I think maybe you and I ought to talk to see what we can do 
without having to open that Act.
    I have other questions I would like to ask, but my time is 
up. The gentleman from--Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    I guess this question is for Assistant Secretary Gover, but 
others if they have comments on it. Much has been said about 
the inconsistency of agencies to pay contract support costs. 
Who is responsible for coordinating agency policy within the 
administration?
    Mr. Gover. Ideally, Congressman Udall, that would be the 
Office of Management and Budget that coordinates the executive 
branch policy on these issues. To this point, however, we have 
received no guidance from OMB that would tell us, again, not 
only how to resolve the differences on how BIA and IHS 
administer these costs but, equally importantly, how all of the 
other Federal agencies and departments who do business with the 
tribes pay those costs. The fact is, most of them don't pay the 
costs right now, and they should.
    These lawsuits look to the BIA and the IHS to pay the costs 
in times when, as the chairman points out, IHS doesn't have the 
money to do what we ought to be doing in health care, and BIA 
certainly doesn't have the money to do the many things that it 
is being charged to do.
    Mr. Udall of New Mexico. So OMB hasn't really done anything 
in terms of trying to ensure that all agencies pay contract 
support costs?
    Mr. Gover. Well, they reviewed our testimony.
    Mr. Tom Udall. I am sure they did.
    Mr. Gover. They have not yet taken any aggressive steps in 
that regard.
    I will say that I spoke with Elgie Holstein just last week 
about this issue, and he has offered to coordinate a meeting 
among all of the agencies. That meeting is going to go like 
this. BIA says, you agencies ought to pay your own indirect 
costs; and they are going to say, no, we don't want to; and 
that will be the meeting. Somebody has got to make a decision, 
and I am afraid that happens above my pay grade.
    Mr. Udall of New Mexico. Thank you.
    Let me also just thank you, Assistant Secretary Gover, for 
your service.
    Mr. Chairman, you should know he is a New Mexican, and he 
gave up a good-paying job to come back here and serve the 
public, and I think he is doing a very good job at it.
    Dr. Trujillo, when can the Committee expect to see your new 
IHS proposed contract support cost policy that you referred to 
in your testimony?
    Dr. Trujillo. Yes. In regards to the policy that has been 
put in the Federal Register, we are awaiting final comments 
from the public and tribes and even leadership on the policy. 
We will then have another concluding meeting with tribes and 
tribal leadership on those recommendations and statements that 
have come from the public. We hope to publish the tribal and 
Indian Health Service work on policy by the beginning of the 
fiscal year 2000.
    Mr. Udall of New Mexico. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Arizona, the biggest western union 
Congressman we have.
    Mr. Hayworth. Well, I thank you. From the chairman of this 
Committee and the Congressman for all Alaska, that is high 
praise indeed. It is good to see my neighbor from New Mexico 
here and my other neighbor from New Mexico, who has come back 
to help us with the BIA.
    I would like to thank all of the witnesses, but let me turn 
to Dr. Trujillo.
    Dr. Trujillo, we are especially pleased that you could join 
us today. It is my understanding that you made a policy 
decision this year not to pay any start-up costs incurred by 
tribes in prior years, costs that were incurred with the full 
knowledge and approval of the IHS in which tribes were assured 
they would be placed on the IHS priority list and would be 
paid. The question is fairly obvious. Why are you violating the 
ISDA, the tribal contract commitments, in your own internal 
circulars by now refusing to use the fiscal year 1999 funds 
appropriated by Congress for this purpose?
    Dr. Trujillo. That is an excellent question.
    In my opening statement I refer to that dilemma that we 
have come across in regards to what I had intended to do and 
looked at. Also, the agency, in its discussions with tribes and 
tribal leadership, said that we were intending to pay prior 
years' start-up costs. However, we were advised at the last 
minute prior to our allocating the money within the agency to 
tribes by the Office of General Counsel, the Department of 
Justice, that this decision was prohibited by congressional 
language and that we could not pay nonrecurring start-up costs 
that had occurred prior to 1999.
    We have continued our discussion with tribal leadership, 
General Counsel, the Department of Justice, staffers from the 
Appropriations Committee who had written that language; and 
they all advised us that that was not the intent of the 
language, to pay prior start-up costs. So now I am caught up in 
the dilemma of wishing to have done this, but the 
interpretation of the Office of General Counsel and the 
Department of Justice and the staff from the Appropriations 
Committee was not to do that.
    The Chairman. If the gentleman would yield, I am concerned. 
What the hell does the staff of the Appropriations Committee 
have to do with this? You are operating in authorization 
language.
    Now, I would suggest--I have had this fight with the 
Appropriations Committee before. I heard Mr. Gover say it, too. 
I want the names of those people that instigated this, and we 
will have what we will call a come to Jesus meeting with the 
appropriations committee. They are not running this damn 
Congress. So I want those names. If they instigated this--
because we did appropriate the money. They are going beyond the 
role of any one committee--they are not authorizers. So you 
will give me those names, will you not?
    Dr. Trujillo. We will forward our discussions with also the 
interpretation from the Office of General Counsel and 
Department of Justice.
    The Chairman. I want the whole transcript of how they 
arrived at this decision. I am not beating you on the head. I 
am beating them on the head.
    Mr. Hayworth. I thank the chairman.
    I would reiterate, Dr. Trujillo, we would appreciate your 
cooperation. If you don't have the information today, again 
just to state for the record, it is very important to this 
Committee that those answers be supplied in writing as quickly 
as possible because, as the chairman outlines, we have some 
very serious policy questions confronting not only this 
Congress but the several Indian tribes. And so we would 
appreciate that.
    Dr. Trujillo. Before concluding, what we had intended to do 
in our discussion with tribal leadership and also the 
interpretation from General Counsel and the Department of 
Justice----
    Mr. Hayworth. How quickly can we expect that response from 
you, Dr. Trujillo?
    Dr. Trujillo. I would imagine by the end of this week.
    Mr. Hayworth. So we can expect this on Friday? Would that 
be fine with the chairman?
    Dr. Trujillo. I am sure there will be other questions, but 
in this particular issue we can get that to you.
    Mr. Hayworth. Whomever's interpretation of section 314 of 
last year's appropriations Act, you have gone through that. 
Again, for the record, let me ask you your interpretation. 
Isn't it true that section 314 simply instructs the agency on 
what it can and cannot do with its older appropriations 
accounts?
    Dr. Trujillo. The reading when we had first reviewed the 
language was simply that, and it also would have allowed us to 
possibly pay those prior start-up costs. That was our intent, 
certainly my intent. Further interpretations and discussions 
and we were then informed of that information, as I had related 
to you earlier, that we were prohibited for not paying prior 
start-up costs.
    Mr. Hayworth. Isn't that what the Interior Board of 
Contract Appeals in the Federal court in Oregon just determined 
in separate rulings this past month?
    Dr. Trujillo. Those are some particular issues surrounding 
some of the contract support cost issues. In this particular--
of course, 314 were not part of that discussion.
    Mr. Hayworth. Dr. Trujillo, isn't it true that by not 
reimbursing any start-up costs you will be severely damaging 
three tribes in particular, notably the Gila River, Fort 
McDowell and Potawatomi tribes?
    Dr. Trujillo. Their amounts for these particular start-up 
costs are significant. We had entered into discussions with 
them and also continued discussions with Gila River as to some 
other alternatives if this particular issue was not resolved.
    Mr. Hayworth. Doctor, I thank you.
    I thank you, Mr. Chairman. I see the red light.
    The Chairman. We can always come back.
    The gentlelady, do you have questions?
    Mrs. Napolitano. Thank you, Mr. Chairman.
    I am sorry I was late. I didn't get to hear your 
introduction. But I am going to be a little concerned about the 
1995 suit to IHS and the Court ruling that the Secretary should 
try to allocate as much funding as possible from lump sum 
appropriations each year and found that the legislative history 
show the intent to go up pro rata reduction in contract 
funding. How is that working out? This is 1995. Have you 
instituted that pro rata funding?
    Dr. Trujillo. As I had mentioned earlier in my statement 
and the Congressman from New Mexico was talking about, the new 
policy that has been developed along with the tribes and tribal 
leadership that will be getting final comment on and hopefully 
publishing at the beginning of this coming fiscal year involves 
the allocation of contract support costs on a pro rata basis on 
new or incoming funding so that no tribes would have be having 
a detrimental impact upon their programs.
    Mrs. Napolitano. So, in other words, there will be less for 
the funds that are applying but nobody will be left out?
    Dr. Trujillo. Correct. We will bring up, hopefully, all of 
the tribes who do need the money more in the particular policy 
level.
    Mrs. Napolitano. Okay. I am not quite sure what the answer 
is. Can you maybe elaborate on whether it is the funding that 
has not been there, the decrease in the funding? What is going 
to help reach the levels of adequate service?
    Dr. Trujillo. You put a statement in your answer that I 
would like to just concur with. One is the insufficient funding 
in this particular category on direct and indirect costs. The 
other is the insufficient funding for program costs which we 
manage and administer ongoing programs, not only with the 
Indian Health Service but also the tribes, in urban programs. 
The tribes and urban leadership presented to the Department of 
Health and Human Services about two and a half months ago a 
needs-based budget of $15 billion. At the present time, the 
Indian Health Service is requesting in its preliminary 
discussions with the Department and, of course, within the 
administration $3.2 billion for its annual appropriations for 
the year 2001. The gap between $3.2 and $15 billion are indeed 
tremendous. In this overall cost also comes the cost within the 
direct and indirect cost to administer and manage programs.
    Mrs. Napolitano. Why the difference? Why the disparity?
    Dr. Trujillo. Great disparity in funding and health care.
    Mrs. Napolitano. Have you asked why the disparity?
    Dr. Trujillo. It has been funding over a period of time in 
regards to Indian programs.
    Mrs. Napolitano. You mean reduction of funding?
    Dr. Trujillo. There has been reduction of funding, but 
there has been insufficient funding in some of the mandatory 
areas such as pay costs, inflation, population growth, that 
affect all of our programs nationwide, tribes and Indian Health 
Service.
    Mrs. Napolitano. But, legally, aren't those required?
    Dr. Trujillo. They are not. This is a discretionary funding 
program.
    Mrs. Napolitano. What would your suggestion be then? I am 
sorry, I stopped you in the middle of your telling----
    Dr. Trujillo. I hope that we would be able to--those of us, 
yourself included, this Committee and certainly appropriations 
in the Senate could fully discuss the appropriate needs across 
Indian country, not only in health care but economic 
development, housing and other areas that are in critical need 
in Indian country, Alaska included and the lower 48.
    Mrs. Napolitano. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Before I recognize the gentleman from Nevada, 
one of the things that I have listened to here, Mr. Gover and 
Dr. Trujillo have insufficient funds, but what were the amounts 
asked by the administration in this most recent budget?
    Dr. Trujillo. In regards to the Indian Health Service, we 
were hoping for an increase of around about $170 million over 
last year's appropriations. So far, with both the Senate and 
the House, we are seeing lesser amounts.
    The Chairman. Lesser amounts. How much did that--that $170 
million, how much is that short of accomplishing your goals?
    Dr. Trujillo. We had hoped that we would probably get at 
least to close to $200 million.
    The Chairman. You should ask for $300 million. I know how 
this game is played.
    Mr. Gover, how about the BIA?
    Mr. Gover. Basically the same story. We asked for an 
increase of about $140 million, including the Office of the 
Special Trustee. The committees, each of them have offered 
less. In order to actually meet our programmatic objectives, 
according to both the study of tribal priority allocations that 
we just completed with the tribal work group and according to 
the National Academy of Public Administrators, we would need to 
triple our budget in order to actually meet the programmatic 
objectives that have been established for us by the Congress.
    The Chairman. That is interesting to me because I am always 
a little concerned. We take the hit, you take the hit. But 
sometimes I think that you ought to come down with the numbers 
that you really need and forget what everybody else says and 
then let's figure it out. Because if you come down with a 
figure, you know they are saying you asked for too much. I 
think there is some real strong evidence here of what the needs 
are. I think that ought to be brought out so the public can 
talk about it.
    Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    I just wanted to direct perhaps a production request to Mr. 
Sullivan, if I could. I have looked at your testimony here, and 
I have noticed some glaring absences, and I am reminded by the 
chairman that much of your testimony fails to recognize--either 
that or you are unaware that your division, your own agency 
negotiates either direct--I mean, indirect rates for some of 
the largest tribal organizations, including my colleague from 
Alaska's Yukon-Kuskokwim--however he says it--Health 
Corporation, the Aleutian Pribilof Islands, Southeast Alaska 
Regional Health Corporation, and Tanana Chief's Conference in 
Alaska, just to name a few. Would you be willing and would you 
make a commitment to this Committee today to provide a list of 
all tribal organizations and nonprofit organizations for whom 
you negotiate indirect rates by the end of the week?
    Mr. Sullivan. I was under the impression that the listing 
that I furnished today, the seven nonprofits and the seven 
organizations subject to A-87 of the State and local Cost 
Principles, was the listing of the organizations that the DCA 
does set rates with.
    Mr. Gibbons. Would you go back to your agency and go back 
through the records and then provide for us a complete listing, 
as I have requested, of all of the tribal organizations and 
nonprofits organizations for whom you negotiate indirect rates 
and provide that list for us by the end of the week?
    Mr. Sullivan. Yes, sir.
    Mr. Gibbons. Mr. Fitzpatrick, you are sitting there 
quietly. Perhaps I should direct a question to you. It would be 
only fair.
    In this setting, when a tribe proposes a certain amount of 
contractual support costs and the parties ultimately end up 
negotiating and eventually the IHS, Indian Health Service, will 
make a decision on that cost, I would think that IHS would 
actually make a decision in writing and explain how or why it 
disagreed with the tribe and came up with a different number. I 
should think that IHS would provide also an appeal process in 
that regard. In fact, I thought this was also required by the 
Act.
    So my question to you, Mr. Fitzpatrick, is if you agree 
that that would be a fair and right and legally required 
process, why has the IHS this year not furnished tribes with 
these simple pieces of information? Tribes have repeatedly said 
they have no idea why or where they stand and if they request, 
their requests have been knocked down and, if so, on what 
basis. What they have is nothing from which they can make an 
appeal, obviously.
    So I would like you to address that issue and whether or 
not you feel that there is an obligation to a tribe to be 
straightforward, having a letter in writing or something, 
saying that why or what you paid to them and why you paid to 
them was fair, why it wasn't fair or why you paid them nothing. 
So you if you could address those issues and talk about the 
fairness aspect, I would appreciate that.
    Mr. Fitzpatrick. Yes, sir. I think I can address--well, I 
will address.
    First, we went through 225 applications. We went through 
them. We actually wrote down item by item what we approved or 
disproved, sent them to the area offices, from which they 
actually came from the 12 area offices. We sent it back to them 
for them to actually take it down to the tribes to tell them 
what happened. So, yes, a document did go from my offices to 
the area directors explaining what was accepted, what wasn't 
accepted, what was needed, provided they weren't in agreement.
    Mr. Gibbons. Mr. Fitzpatrick, isn't it true that many of 
the tribes never received even the limited summary information 
that you provided them to the Office of Tribal Programs that 
was sent to area offices explaining your first round of 
payments from that $35 million account because the areas were 
not instructed to advise the tribes or all of the tribes?
    Mr. Fitzpatrick. No. I did not instruct them not to advise 
them. I passed it down hoping they would advise them. It gave 
them a detailed, itemized----
    Mr. Gibbons. But you didn't give them any direct 
instructions to advise all of the tribes on the rationale of 
your decision?
    Mr. Fitzpatrick. I can't remember how the letter actually 
went, but I could submit the letter for the record that went to 
each area office.
    Now, there is an appeal process in the 9604 that the tribes 
should be--if they appeal, there is a process for them to 
appeal.
    Mr. Gibbons. On page 11, subparagraph 4 of the IHS circular 
9604, it states that, at the end of the second paragraph, once 
a tribe and its local area complete their contract support 
negotiations, only items remaining, quote, in dispute, end 
quote, go to your office for resolution.
    Why this year has your office violated this policy by 
rejecting items that had been agreed at the area and tribal 
level and requiring tribes to renegotiate agreed contract 
support requirements?
    Mr. Fitzpatrick. In reviews those ISD requests, many of 
them came in that showed actual duplication of costs, 
unallowable costs, so they went back to them to be explained 
why.
    Mr. Gibbons. Why has the Office of Financial Management 
been discriminatory against programs on IHSQ by applying them 
to a different rule regarding direct contract support costs 
than has been applied to all other programs?
    Mr. Fitzpatrick. We just--we have actually followed 9604 
and made sure that all tribes were treated equally in our 
reviews.
    Mr. Gibbons. Well, 9604 remains in place and it hasn't 
changed, has it?
    Mr. Fitzpatrick. It is in place, yes, sir.
    Mr. Gibbons. So it should be applied as, according to that 
circular, consistently to all contracted programs, is that not 
true?
    Mr. Fitzpatrick. Yes, sir.
    Mr. Gibbons. Mr. Chairman, I will wait for a second round.
    The Chairman. The gentleman from Arizona, do you have any 
other questions?
    I am going to--we have another hearing coming up in this 
room, and I do apologize, and I want to be able to listen to 
the next two panels. But we are going to forward to the 
administration additional questions with a deadline set for 
compliance. I say this because last time the Committee 
submitted questions to the administration they were 2 months 
late. And since this is our first hearing, I will allow that 
additional time. Should the administration not submit your 
answers in time, I will take formal action to ensure that you 
comply with our time limit.
    We need to forward the contract support costs. We need to 
move forward on this. And this Congress, very frankly, I, 
especially, do not appreciate delays that results in the 
administration not responding to the questions that we will 
submit, because we do plan on solving this problem. The 
deadline for answering the questions I will submit to you is on 
September 3 of 1999, which gives you approximately one month. 
So I do appreciate that, if you would do so.
    I thank the panel, and my door is open. My phone is 
available.
    I would suggest to Mr. Gover, especially to Mr. Trujillo, 
that if there is a problem that we can't solve, let me know and 
I am going to communicate and see if we can't solve it. If I 
find that you are not adding to the solution to the problems, 
then I am going to be not too happy.
    I do appreciate your work and support. My ultimate goal is 
to make sure that all American Indians have good health care. 
This is not about money. It is not about the administration. It 
is about health care.
    I do believe that we are doing a good job in Alaska. We can 
do better if it's not meddled with, I believe. So I do thank 
this panel.
    Mr. Gibbons, do you have any other questions?
    I do thank this panel, and you are excused.
    And I do call up the second panel.
    The second panel is Mr. W. Ron Allen, President, National 
Congress of American Indians, Washington, DC; the Honorable 
Mary V. Thomas, Governor of the Gila River Indian Community in 
Sacaton, Arizona; Mr. Orie Williams, Executive Vice President, 
Yukon-Kuskokwim Health Corporation, Bethel, Alaska, an 
outstanding Alaskan constituent. They actually made me chief 
when we were in Bethel, so I am very lenient towards Mr. 
Williams. He will be accompanied by Mr. Paul Manumik, Chairman 
of the YKHC, and Mr. Lloyd Benton Miller, Attorney.
    We always have to have these attorneys available. I realize 
that.
    We will have Mr. Ron Allen be the first one up. Ron.

  STATEMENT OF W. RON ALLEN, PRESIDENT, NATIONAL CONGRESS OF 
                AMERICAN INDIANS, WASHINGTON, DC

    Mr. Allen. Thank you, Mr. Chairman. It is always a pleasure 
to be able to come and testify before this Committee and 
address issues that affect the Indian nations across America.
    Contract support, as you well know, is an issue that we 
have been wrestling with for the past 20 years. It is not a new 
issue, not a new struggle. This is an old matter that we have 
been trying to correct and cause the Congress and the 
administration to get on the same page with regard to what to 
do.
    The Indian Self-Determination Act in 1975 had a very simple 
objective. That objective was--with regard to Federal programs 
that administers Indian programs--was to reduce those programs 
and transfer those functions out to the Indian people. It was 
intended to put Indian programs in the hands of Indian people. 
It also, interestingly enough, 20 years ago was about 
devolution. It was about empowerment of tribal governments and 
to cause them to be able to have greater capacity to serve 
their communities.
    The National Congress of American Indians has been working 
with the tribal leadership across the United States in a 
contract support costs task force that we put together a little 
over a year ago. Over the last 13 months we had 11 national 
meetings and countless smaller work sessions and gathered what 
we believe is the experts of the experts with regard to a 
subject matter that most people don't like. It is not a simple 
subject matter. It is not easy to understand. But its concept 
is very straightforward, in our opinion. It is a concept that 
is well accepted by the Federal Government. It is accepted by 
State governments. It is accepted by the private sector.
    Contract support administrative overhead costs is something 
that is very common with regard to how you administer programs 
and services for a particular purpose. We have put a lot of 
hard work into correcting a whole lot of myths and 
misunderstandings that we believe has been advanced with regard 
to contract support.
    One of the questions is, does the Congress and the 
administration want to pay for the implementation of the goals 
set out in an Act that was intended in 1975? Did they know what 
they were trying to achieve? And now that the price tag has 
come in, and to achieve that, to raise the welfare of our 
communities up to the same level of mainstream America, are 
they willing to make that payment?
    We tried to work with everybody. We have brought in 
Interior, the Indian Health Service. We have tried to get the 
DHHS, the Division of Cost Allocation, but they refused to come 
into our sessions to work with us. We tried to get OMB. They 
did not participate a great deal with us. So, interestingly 
enough, quite a few of the folks in the Federal administration 
system worked with us, but many did not which was a little bit 
on the disappointing side.
    In the findings of our report that we are submitting to you 
and the other Members of the Congress and to the administration 
with regard to our observations and findings and 
recommendations, we have come up with a number of them. One is 
the notion of contract support rate is out of control. It is 
not the rate. Rate has nothing to do with the issue that we are 
dealing with right now. The average rate that both IHS and BIA 
in their analysis and our analysis is averaging around 25 
percent. That is half of what the Federal agencies charge each 
other with regard to the same kinds of costs. It is half of 
what a university pays. Universities used to be up in the 100 
percent range.
    It really is not the rate, and we have shown over the years 
that the rate nationally is very stable. That is not the 
problem whatsoever in that the system of negotiating the rate 
is very flexible and is consistent with the uniquenesses of the 
tribes.
    Tribes across America, from Alaska to Florida, are not the 
same. The fact is, you do get some adjustment relative to their 
size and conditions and so forth. We believe that it has been 
very effective and very efficient in advancing that agenda.
    We also believe that the actual cost that we are asking 
Congress to bear is not an overwhelming cost. You asked 
questions of the previous panel about what is it that is 
actually needed. Right now, on the IHS side, we think that we 
are about 100 to 110 million short in the filling of the full 
needs for providing full contract support for all of the 
contracts that are out there right now, whether they are in 638 
contracts or the self-governance compact. On the BIA side, it 
is only about 65 million.
    When Indian country listens to all of the stuff that goes 
on in the Congress, dealing with the veterans and dealing with 
airport needs and dealing with the current issue with the 
farmers, the problems that they have, and they see literally 
billions of dollars being pumped out of here and we hear the 
debate over the surplus moneys and so forth, we look at the 
numbers that we are asking for, and we say, where does the 
priority of Indians fit against that priority of the resources 
that America has, the most impoverished communities in America? 
And is there willingness by the Congress to make a committment 
to our communities?
    We believe that it is very reasonable. We think when we get 
down to our recommendations that--let me back up. We also 
believe that once we fully fund it, it becomes fairly stable. 
We have made our own projections about what the actual cost 
would be annually as you continue to transfer these functions 
and services out to Indian country from BIA and IHS. It is 
fairly stable, it is very consistent, and it is not an 
overwhelming number that baffles anyone or should be a big 
problem for the Appropriations Committees.
    We believe that when we get right down to it there is only 
three choices. We have the first choice where Congress can 
fully fund it. Second, if the Congress doesn't fully fund it, 
you can underfund us, and we would be left to go to the courts 
and try to get the Courts to instruct the Congress to fully 
fund it based on the law, the legal right that we have. Three, 
the third option is an arraignment case. This is an 
entitlement, that Congress owes the tribes for these funds, and 
they shouldn't be subsidizing the Federal Government for these 
functions or it shouldn't be undermining existing programs.
    So the issue is, should it be part of an entitlement? 
Should the whole contract support with all of these contracts 
and compacts be moved over to an entitlement section? It is not 
an overwhelming number relative to those functions that are in 
the entitlement section. We urge you to take a serious look at 
that.
    We also suggest that you look at instructing OMB to 
establish a separate circular dealing with tribes. If you look 
at the circular as OMB establishes, they regularly try to make 
the governments all the same, State governments, local 
governments and tribal governments. We argue that we are all 
governments, but we can tell you that the resources of the 
State and local governments are not the same as tribal 
government. The resources available for tribal governments are 
very limited. It is as a general option. There are only a few 
anomalies sitting out there, and we believe that an OMB 
circular should recognize that uniqueness of the tribal 
governments.
    Third, we believe that there should be some more work with 
regard to benchmarking to create some consistencies with regard 
to how you are going to negotiate these rates with regard to 
the indirect cost rates, the direct contract support costs, and 
the start-up costs. There is some consistency. There is a 
little bit of inconsistency that some people create as 
problematic, and we believe that can be addressed.
    Four, we believe that there is a whole lot of stability in 
the tribes right now. Over the last 5 or 10 years a great deal 
of stability has been moving forward. We have been advancing 
the concept that you can take these resources and move them 
into the base budgets of tribes and tribes will move forward 
with that if they are fully funded and leave it to their 
ingenuity and creativity to become more efficient with those 
resources, a concept that we believe has a great deal of merit.
    Five, we believe that BIA should be instructed to deal with 
direct contract support, just like IHS does, and recognize 
those two costs so there a consistency.
    The sixth issue is similar to the previous one in that 
there needs to be consistency on the policies and principles of 
contract support with regard to BIA and IHS.
    And, finally, we add into the other Federal agencies that 
was discussed in the earlier panel. We point out that there are 
some serious problems, but we believe that they can be 
addressed. We believe that if we enter into the next millennium 
we can solve this problem if we work together in this matter. 
We do have answers, and it really is not that great a price 
tag.
    Thank you.
    The Chairman. Thank you, Mr. Allen. I want to suggest that 
I am pleased with what you are saying and the recommendations 
that you have because we are going to try, in conjunction with 
the Senators and other Congressmen, try to solve some of these 
problems through legislation, so we welcome your suggestions.
    [The prepared statement of Mr. Allen follows:]

  Statement of W. Ron Allen, President, National Congress of American 
                                Indians

    Good morning Chairman Young and distinguished members of 
the House Resources Committee. My name is W. Ron Allen. I am 
President of the National Congress of American Indians (NCAI) 
and Chairman of the Jamestown S'KlallamTribe located in 
Washington State. On behalf of NCAI, the oldest, largest and 
most representative Indian organization in the nation, I would 
like to thank you for the opportunity to testify this morning 
on contract support costs. NCAI was organized in 1944 in 
response to termination and assimilation policies and 
legislation promulgated by the Federal Government which proved 
to be devastating to Indian Nations and Indian people 
throughout the country. NCAI remains dedicated to the exercise 
of tribal sovereignty and the continued viability of tribal 
governments. NCAI also remains committed to advocating 
aggressively on behalf of the interests of our 250 member 
tribes on a myriad of issues including the development of 
contract support costs solutions and funding options in the 
Bureau of Indian Affairs and the Indian Health Service.

I. INTRODUCTION

    The Indian Self-Determination and Education Assistance Act 
(ISDEAA) authorizes tribes to contract to operate Bureau of 
Indian Affairs (BIA) and Indian Health Services (IHS) 
government programs serving the Indian recipients of those 
programs. The point, as you well know, is multi-faceted: (1) to 
reduce the Federal bureaucracy; (2) to place Indian programs in 
the hands of the Indian people being served; and (3) to enhance 
and empower local tribal governments and institutions.
    However, the shortfall in contract support costs due under 
the Act has impeded the achievement of those goals, and has, in 
fact, penalized our tribal people--the real and ultimate 
victims of the shortfall. Given the severity of those 
shortfalls, the impact on the programs themselves, and the 
growing drumbeat of litigation, last year NCAI took the 
initiative to form a National Policy Workgroup on Contract 
Support Costs.

II. NCAI NATIONAL WORKGROUP ON CONTRACT SUPPORT COSTS FINAL 
REPORT

    The purpose of our workgroup was to come to a thorough 
understanding of the contract support cost system as it has 
evolved over the years, to identify the problems that have 
developed and to explore solutions. After thirteen months of 
work, eleven national meetings, countless smaller working 
sessions and thousands of hours of volunteered time, we are 
proud to present to you our Workgroup's Final Report. It is 
important to underscore the fact that our Report and 
recommendations is the result of a great deal of hard work and 
diligence on the part of Tribal leaders, and technical and 
legal representatives who are experts in this specialized 
topic.
    In preparing this Final Report, it was our intent and 
desire to be as inclusive as possible. All relevant agencies 
were invited to participate, including the BIA, IHS, the Office 
of inspector General of the Department of the Interior, the 
Department of Health and Human Services Division of Cost 
Allocation, and the Office of Management and Budget. Indeed, we 
even had hopes early on that our report would be a joint 
tribal-Federal report, although eventually that was not 
possible. While Federal representatives actively participated 
in our Workgroup meetings and discussions, this effort and 
final report was initiated by the tribes.
    Our work went forward both energetically and productively, 
though not without disappointment. For instance, early on the 
DHHS Division of Cost Allocation simply refused to show up, and 
they refused to share their historic data either directly or 
through IHS. Then, one month ago, the BIA released a separate 
contract support cost policy which was developed without our 
knowledge or involvement. Despite these problems and 
disappointments, our work went forward, resulting in 31 key 
findings, 8 guiding principles and 16 major recommendations, 
some of which I will mention here.

III. NCAI FINAL REPORT--FINDINGS

    In the findings section, our work confirmed the integrity 
of the indirect cost negotiation system as carried out by the 
Department of the Interior Office of Inspector General. We 
found it to be free of collusion, over-reaching or abuse, a 
finding echoed in the General Accounting Office report.
    Second, we found that this indirect cost negotiation system 
has proven to be appropriately flexible to differing tribal 
conditions. Tribes, like states, counties and cities, are all 
different. They not only use different accounting systems, 
practices and materials, but they face vastly different 
circumstances. Workers' compensation systems may in one part of 
Indian Country cost many times what the cost is somewhere else. 
Salaries vary--just as do utilities, rent and the like. Climate 
alone can play a large role, as can the extent of isolation, 
and we found the indirect-cost system to be uniquely sensitive 
to all these factors.
    Many in the Administration and Congress have been led by 
the perception that indirect cost rates have been out of 
control leading to radically escalating contract support costs. 
Interestingly, just like the BIA and IHS, we found that 
indirect rates had in the aggregate remained surprisingly 
stable--even flat--at under twenty-five percent. This finding 
directly answered the concern by some that indirect costs were 
out of control and abused by tribes who saw the sky as the 
limit on indirect costs. That myth is now firmly dispelled.
    Our report reveals that the increase in contract support 
costs is directly related to the success of the implementation 
of the ISDEAA. Tribal contracting and compacting activities 
accelerated to their peak in the mid-1990s in response to the 
1994 ISDEAA Amendments and extension of the self-governance 
initiative to IHS. The trend in the transfer of Federal Indian 
programs to tribal operation under the ISDEAA has leveled off 
from the peak experienced in the mid-1990s, and with a few 
notable exceptions should remain constant in the years ahead.
    We also found that this static, aggregate, twenty-five-
percent rate was less than one-half the indirect rate of DHHS 
itself, as well as various other Federal agencies, 
universities, state agency service providers and most private 
foundations.
    oWe found that the contract support cost shortfall is 
projected to be relatively small in fiscal year 2000 compared 
to the overall agency budgets and the magnitude of tribal 
contracting and compacting. At IHS, it is about $100 million, 
including a small inflation factor (estimated at 3.5 percent). 
At BIA, it is approximately $65 million, including adjustment 
for inflation and factors related to the Ramah case (estimated 
at $21 million). These numbers are actually smaller than what 
we expected to find.
    Finally, we found that contract support costs are for the 
most part expected to rise slowly in the years ahead. For the 
BIA, whose total estimated contract support costs requirements 
are roughly $180 million (which includes adjustment related to 
the Ramah case), the expected annual increase is less than $12 
million a year, or about 7 percent. For the IHS, whose total 
estimated contract support cost requirements are roughly $310 
million, the expected long-range increase is $10 million a 
year, or about 3 percent. These are modest increases indeed.
IV. NCAI FINAL REPORT--RECOMMENDATIONS

    In light of these and other findings, we made several 
recommendations, including the following:
    First, we concluded that contract support costs can and must be 
fully funded. They are an obligation of the Federal Government, both 
legally and contractually. This payment is also morally right--
consistent with the devolution movement and local empowerment, tribal 
governments should not be required to permanently reduce funding for 
their programs and services. Although not specifically addressed in our 
report, there are really only three choices to address contract support 
cost funding issues:

        <bullet> The appropriations committees can appropriate the full 
        amount required--which under today's caps is difficult, at 
        best;
        <bullet> The appropriations committees can appropriate less, 
        and leave tribes to sue to recover the rest; or
        <bullet> Appropriate measures can be enacted to make contract 
        support costs a true entitlement in terms of its funding 
        mechanism in Congress.
    Given the genuine pressures facing the appropriators, I suggest 
this Committee give this third option very serious consideration. Cost-
wise, the impact is infinitesimal relative to the non-discretionary 
Federal budget. In terms of American Indian and Alaska Native 
governmental, social and health care programs, however, the impact 
would be clear, immediate and substantial.
    Second, we recommend that the OMB issue a new cost circular 
specifically devoted to tribes and the unique laws that affect tribes. 
OMB continues to aggregate tribes in circulars with state and local 
governments, although Congress regularly recognizes that tribal 
governments do not have the same available resources to accommodate 
such circular conditions. Such a proposal was included in the 1994 
amendments to the ISDEAA, but was deleted at the last moment at OMB's 
request. Particularly since Congress, in the ISDEAA has enacted special 
cost accounting principles applicable only to tribes, an OMB circular 
specific to tribes will eliminate the current confusion that exists 
between those statutory provisions and the existing general circular.
    Third, we recommend that Congress authorize one to two years for 
the development and field testing of a potential ``bench-marking'' idea 
that would help bring greater consistency among similarly situated 
tribes. The idea here is to develop ways of bench-marking particular 
contract support cost components, so that tribes and government 
negotiators would have signposts to guide their negotiations, without 
actually dictating the outcome. If successful, such a proposal could 
help even out the highs and lows among tribes, thus achieving greater 
equity between all. Unfortunately, coming up with the precise 
benchmarks is a fairly technical undertaking that was beyond what we 
could do in the first year of our work.
    Fourth, we believe IHS and BIA should be encouraged to work jointly 
together in the development of a contract support cost ``base budget'' 
approach such as is already under development, and as also described in 
alternative four to the General Accounting Office report. The agencies 
should be asked to inform Congress whether any further authorization is 
necessary to proceed with this efficiency innovation.
    Fifth, we recommend that the BIA immediately come into compliance 
with the law and with the applicable regulations by recognizing and 
paying direct contract support costs such as workers' compensation and 
unemployment insurance. Not only must the BIA come into conformity with 
the law, but it must aggressively go forward and inform each and every 
tribal contractor that the Bureau will now begin complying with the 
ISDEAA in this critical respect.
    Sixth, we recommend that BIA payment policies more closely mirror 
IHS policies by promoting first, and foremost, financial stability. As 
judges have held, neither tribes nor the ultimate Indian beneficiaries 
are well-served by a system under which the BIA holds back substantial 
contract support funding until the end of the fiscal year. Rather (and 
unless overpayments would result) tribes should receive at least the 
same amount of funding they received in the prior year, and such funds 
should be paid at the beginning of the fiscal year, not at the end.
    Finally, we recommend that the so-called ``other Federal agency'' 
finally be tackled head-on by Congress. Currently, we operate under a 
system where a government-wide OMB circular establishes the rules for 
determining tribal indirect-cost needs, but not all Federal agencies 
feel bound by the circular. As a result, tribes are once again squeezed 
in the middle. As a first step here, we recommend that Congress call 
upon the GAO to study the source of each Federal agency's restriction 
on the recovery of indirect costs. Once the source of those 
restrictions is known, Congress can consider appropriate legislation to 
overcome the barriers that currently pose such difficult problems for 
tribes.
V. CONCLUSION

    In closing, we strongly recommend that all members of the Committee 
take the time to review our executive summary. I would like to close my 
remarks by quoting two short paragraphs from our report which I believe 
put the issue well:

        No single policy in the history of American Indian affairs has 
        more forcefully and effectively permitted tribes to empower 
        their tribal institutions and their people. No single policy 
        has more effectively served to break the cycle of dependency 
        and paternalism. No single policy has better served the 
        philosophy of devolution--moving Federal resources and decision 
        making to that level of local government that is closest to the 
        people. And, no single initiative has contributed more to the 
        improvement in the conditions facing American Indian people.
        As the Nation enters the new millennium, it is essential that 
        the American people recommit fully and keep faith with the 
        Self-Determination Policy and empowerment of tribal governments 
        consistent with the devolution movement. Only through the 
        continuation of that policy can America both respect the 
        fundamental government-to-government relationship that exists 
        between tribes and the United States, and fulfill the Federal 
        Government's trust responsibility to protect the interests of 
        Native American tribes.
    Thank you, Mr. Chairman, for the honor to testify today on this 
most critical issue. NCAI, Tribal leaders as well as our legal and 
technical representatives, look forward to continuing to work with you 
on the development of contract support costs solutions and funding 
options.

    The Chairman. Governor Mary Thomas.

 STATEMENT OF HON. MARY V. THOMAS, GOVERNOR, GILA RIVER INDIAN 
                  COMMUNITY, SACATON, ARIZONA

    Governor Thomas. Thank you and good morning, Mr. Chairman 
and members of the Committee, and especially to my 
representative, Congressman J. D. Hayworth. It is a pleasure to 
be here.
    My name is Mary Thomas, Governor of the Gila River Indian 
Community. I am here to present the Community's views on the 
proposed solution for funding contract support costs for health 
care and community service programs in Indian country.
    On Gila River, we have 372,000 acres located in central 
Arizona. We have 19,000 members, and 13,000 actually live 
within the boundaries of the reservation. We have a very young 
and growing population with a lot of needs. Our Community 
provides our own health and primary care services through the 
Department of Public Health and the Gila River Health Care 
Corporation.
    Since 1995, the Community has been operating almost all of 
its health service programs under the ISDEA contracts with IHS. 
Our contracts are model illustrations for what is good and what 
is bad about self-determination contracts for health care 
services. Our experience helps us to advance our health care 
services to those people who really need it. But we also face a 
serious risk that exists that is due to underfunding of 
contract support costs that limits us.
    According to national statistics and our own experience, 
contract support costs comprise about 25 percent of our total 
program costs. The Health Care Corporation, which is in its 
fourth year of operation, very young, has received only 56 
percent of 1 year's contract support costs and no payment at 
all for its contract support costs during the first 3 years of 
operation. We would have been funded at 100 percent of our 
contract support costs in fiscal year 1999 if they didn't 
change the rules on us. We were up there in the Queque list, 
right near the top, and that was wiped out when the Queque 
rules were changed.
    Because of this temporary legislative solution last year, 
our Community expects to receive about 70 percent of its 
contract support costs for fiscal year 1999, but this still 
leaves the corporation with unreimbursed contract support costs 
for fiscal year 1996 to 1998 of over $10 million. We know that 
$35 million was appropriated, and it was made clear that the 
committee believed that the Queque system was inequitable and 
tried to find a sustainable solution for addressing the 
contract support cost needs of all tribes.
    But there are some main points that I want to highlight. 
There are seven of them.
    First, the contract support costs--and everybody probably 
says the same thing--is to fund at 100 percent level. When that 
is not done, in my particular case, in order to enhance 
services like 24-hour emergency service coverage with further 
cuts or not more funding in contract support costs, we may have 
to shut down and limit it to 8 hours a day, which was the case 
before, but our people really objected because there was a 
need. We are in a remote area.
    Also, we established a podiatry clinic because, as you 
know, we have high instances of diabetes on my reservation. 
Over 51 percent of our adult population has or will become 
diabetics. It is estimated that it will go to 80 percent for 
males in the future and over 90 percent for our females in our 
future. We have people as young as under 18 who are diagnosed 
with diabetes as we currently speak.
    Secondly, Congressman Hayworth has alluded to the 
bureaucratic misinterpretation of congressional intent. That 
was addressed before, so I will not go into that.
    But by reducing fiscal year 1999 contract support costs, we 
expect that we will only receive $790,000. We don't accept that 
premise in the proposed revised circular that contract support 
costs would continue to be underfunded in future years. I think 
that is wrong.
    We believe that $35 million in new contract support costs 
in fiscal year 1999 and 2000 is a good step forward, and we 
thank Congress for the increased funding and should take the 
necessary steps to fully fund IHS-approved contract support 
costs.
    We support the GAO reports and recommend options 1 and 4. 
Full funding is one, and the other one is to incorporate the 
cost to contract program budgets.
    Sixth, we understand there is a discussion in Congress 
concerning the possibility of establishing a pilot program. As 
I said before, we know both the good and bad of trying to run 
our health programs under contracts. So we would be interested. 
If it is coming to fruition, we would like to take part.
    Finally, about the GAO report, there must be a single and 
consistent Federal policy dealing with contract support costs 
that applies to any and all self-determination/self-governance 
contracting by tribes, whether within the BIA or IHS.
    In conclusion, I brought something with me that I would 
like to share with you.
    I have been a diabetic for 37 years. This is my life right 
in this box. It is my syringes that I use for inoculating 
myself morning and night with my insulin. These are the pills 
that I must take every day in regard to associated problems 
with it--high blood pressure, infections, and controlling the 
sugar content within my body. This is why I have lasted for 37 
years. It is because I have followed this regimen very close 
and tried to take care of myself as best as possible.
    The average cost for a diabetic on Gila River is about 
$5,000 per year and we have 26,000 out of 35,000 registered. So 
you figure that out on a yearly basis it costs about $13 
million to pay for our diabetics necessary care. That does not 
include everything, though. Just part.
    I have had laser surgery on my eyes. I have had operations. 
I have had kidney infections, urinary tract infections. 
Luckily, I have not had to go through any amputations. It takes 
long for me to heal out of surgery, and my teeth are affected 
as well. I hope that you will take this into some thought, that 
it does take a lot of money to run our programs, but we are 
trying our best at the local levels.
    Thank you.
    The Chairman. Thank you, Mary.
    And, just for your information, this is one of my projects, 
is diabetes. It is not only in your area. It is one of the more 
rapidly rising diseases, most disabling diseases that we have, 
especially amongst the young. Contrary to what many people--we 
had two young people in my office the other day. One was 8 and 
one was 7. Like you said, it is a very expensive thing. We are 
trying to get enough money into research so that our future 
generations don't have to go through what you are going 
through. We are doing everything we possibly can.
    [The prepared statement of Governor Thomas follows:]

Statement of Hon. Mary V. Thomas, Governor, Gila River Indian Community

INTRODUCTION

    Good morning, Mr. Chairman and Members of the Committee. My 
name is Mary Thomas and I am the Governor of the Gila River 
Indian Community. I am honored to have the opportunity to 
represent the Gila River Indian Community before the Committee 
today to discuss Federal funding for contract support costs 
associated with health care and other community service 
programs in Indian Country (``Contract Support Costs'').
    The Gila River Indian Community (the ``Community'') is 
located on 372,000 acres in south central Arizona. Our 
Community is composed of approximately 19,000 tribal members, 
13,000 of whom live within the boundaries of the Reservation. 
The Community provides preventive health and primary care 
services through its Department of Public Health (``DPH'') and 
the Gila River Health Care Corporation (``GRHCC'' or 
``Corporation''). With minimal exceptions, the Community has 
operated all health service programs on the Reservation under 
Indian Self-Determination contracts with the Indian Health 
Service (``IHS'') since fiscal year 1996. We also provide law 
enforcement, social services, irrigation system construction 
and rehabilitation, and other community services under self-
determination contracts and self-governance agreements with the 
Bureau of Indian Affairs (``BIA'') and the Bureau of 
Reclamation (``BOR'').
    We strive to operate well-managed and effective community 
service programs responsive to our Community's specific needs. 
With respect to health status, we have a relatively young and 
rapidly growing population, which suffers tremendously 
disproportionate rates of debilitating chronic diseases such as 
diabetes and alcoholism. In fact, the World Health Organization 
has found that our population has the highest incidence of type 
2 diabetes mellititus in the world. It will take working 
through at least one generation to move from the IHS model of 
treating acute health conditions to a Tribally-based health 
prevention and maintenance model. We believe this change can 
only be made through the continued efforts of our Community-
managed Department of Public Health and Health Care Corporation 
under adequately funded self-determination contracts with the 
IHS. With respect to our BIA and BOR programs, we similarly 
believe meaningful improvements can best be made by continuing 
to operate these programs ourselves through our contracts and 
compacts with the BIA and BOR.
    It is appropriate that the Committee has asked the 
Community to testify today concerning contract support funding. 
According to national statistics and our own experience, our 
Contract Support Costs can be expected to comprise 
approximately 25 percent of our total program costs (see 
accompanying graph). In the area of health care, however, as of 
today, our Health Care Corporation, In its fourth year of 
operation, has received 56 percent of one year's Contract 
Support Costs, and no payment for its Contract Support Costs 
for its first three years. With respect to the Community's 
ongoing self-determination and self-governance agreements with 
BIA, we receive less than 100 percent funding for indirect 
costs and far less in Contract Support Cost funding. The 
Community's experience speaks for itself in illustrating the 
shortcomings in the past Federal Contract Support Cost policy 
implementation and the unfortunate consequences of being in 
exactly the wrong place at the wrong time as that policy 
changed at the IHS. We focus today on our experience with 
contracting with the IHS as it illustrates the best and the 
worst of self-determination policy.
    The DPH has operated community service programs such as 
Public Health Nursing and the Community Health Representatives 
program since as far back as 1985. In June of 1995, as the 
Community was preparing to contract with IHS to assume 
operation and management of the Community's Hospital and 
associated program and administrative functions, we submitted 
to IHS a contract support request of $4 million. Because of the 
IHS practice of utilizing its first-come first-served waiting 
list or ``queue'' for new and expanded unfunded self-
determination Contract Support Cost requests, our request was 
placed on the queue and we waited for funding. Under this 
system, the Corporation operated for three years with no 
contract support funding--waiting to reach the top of the 
queue. If the system had continued without change and Congress 
appropriated $7.5 million in FY99 as it had in recent years, 
the Corporation would have received 100 percent of its FY99 
contract support need plus reimbursement for pre-award and 
start-up costs incurred in prior years. We estimate the 
Corporation's cumulative unreimbursed Contract Support Costs 
for FY96-98 at over $10 million. Each year we did not receive 
funding, we continued to track our Contract Support Costs and 
refine our Contract Support Cost request. Eventually our 
request made it close to the top of the IHS's queue and we 
would have been funded at 100 percent in Fiscal Year 1999 if 
the queue system had continued as it was operated in the past.
    However, due to an estimated backlog of requests totaling 
approximately $60 million and litigation over contract support 
shortfalls, the contract support funding situation reached 
crisis proportions last year. The House Appropriations 
Committee vigorously supported allocating limited contract 
support appropriations on a pro rata basis among all tribes 
nationwide without regard to its effect on the underlying 
programs. Language attempting to retroactively impose a ``cap'' 
on the amount of funds available for Contract Support Costs for 
previous years was enacted as an appropriations rider, and a 
moratorium was imposed on any new contracting. After a massive 
effort by tribal leaders and supporters in Congress, $35 
million in new funding was included in the FY99 IHS 
appropriation to begin to address the shortfall. The language 
requiring pro rata distribution was eliminated but the cap, 
moratorium, and limitation on past contract support payments 
remained in place. The Committee Report which accompanied the 
appropriation made clear that the Committee believed the 
``queue'' system was inequitable and directed the IHS to work 
with tribes to find a sustainable solution for addressing the 
perceived inequity and the contract support needs of all tribes 
contracting with IHS.
    At the same time, the General Accounting Office (``GAO'') 
and National Congress of American Indians (``NCAI'') initiated 
independent efforts to examine the shortfalls in contract 
support funding at the IHS and BIA, and to propose 
recommendations or alternatives to the current funding systems.

Distribution of IHS Contract Support Funding in FY99

    Immediately following final action on the IHS's FY99 
appropriation, the IHS and NCAI convened meetings to consult 
with tribes concerning how the contract support funding for 
FY99 should be distributed, and to discuss policy changes for 
the future. This process required the IHS to finalize all 
contract support requests on the queue, and in general to 
determine the status of all tribes' contract support 
shortfalls. We commend the Office of Tribal Activities at the 
IHS, and negotiators from the Office of Finance, for their 
efforts in gathering and substantiating a tremendous amount of 
information in very short time frames. Further, this 
consultation process required all participants to really think 
through the short and long-term effects of proposed changes in 
the contract support system. We were impressed at the level of 
expertise brought to this issue by those working in this area 
throughout Indian country.
    For FY99, it is our understanding that the IHS has or will 
distribute FY99 contract support funding so as to bring all 
tribes' contract support funding up to a ``floor'' of 
approximately 71 percent of their total contract support need. 
Ongoing programs are funded based on the amount they have 
historically received out of a pool of funds identified for 
recurring contract support needs. Any shortfall is noted and 
may be paid out of a separate pool of funds made available by 
Congress or IHS for such recurring shortfall. The $35 million 
increase is being used to fund contract support requests on the 
queue to the extent a tribe's total contract support need--
taking into consideration ongoing contract support need and 
payments and new or expanded contract support need--is below 
the ``floor'' of approximately 71 percent.
    The Corporation's Contract Support Cost request for FY99 
was approved by the IHS at approximately $3.7 million. Of this 
amount, $790,000 is for previously incurred preaward and 
startup costs. The balance, approximately $2.8 million, 
represents direct costs (including indirect-type costs) which 
will be recognized by the IHS on a recurring basis so long as 
the Corporation continues to incur these costs each year. Under 
the IHS' distribution methodology for FY99, the Corporation 
expected to receive approximately 70 percent of its approved 
request, or approximately $2.52 million.
    In March of 1999, however, we learned that the IHS was 
considering legal recommendations from its Office of General 
Counsel (``OGC'') that it not pay preaward and startup costs 
incurred in prior fiscal years. The OGC opinion on this issue 
concludes that Section 314 of the FY99 Omnibus Appropriations 
Act prohibits use of any part of the $35 million increase for 
prior years' preaward and startup costs. If the Corporation's 
preaward and startup costs are not reimbursed, the Corporation 
will lose an additional $790,000. This is in addition to the 
$1.2 million the Corporation will not receive in FY99 under 
IHS's new distribution system. It is important to keep in mind 
that the funds we are not receiving are funds we would only use 
to operate a Federal program serving Federal beneficiaries. It 
is only right that the Federal Government pay the reasonable 
and prudent costs of running Federal programs as the law 
requires. The history of our program funding, unfunded contract 
support need and contract support funding received is shown on 
the attached graph.
    These preaward and startup costs were included in the 
shortfall amounts communicated to the Committees during the 
FY99 appropriations debates and in the calculations upon which 
the NCAI and IHS recommendations were based. It was clearly our 
(and other tribal representatives) expectation that 70 percent 
of all approved Contract Support Costs--including preaward and 
startup--would be paid in FY99. Congressman Hayworth sent a 
letter to IHS Director Dr. Trujillo clarifying that it was 
congressional intent to pay prior year preaward and startup 
costs included in the queue. And IHS reports that it did pay 
one prior year's startup costs--FY98--but is reluctant to pay 
other prior year costs. Despite correspondence and repeated 
inquiries, we have been unable to get IHS to make a decision or 
provide a written response on this issue. IHS's inaction on 
this issue is unacceptable and we seek the Committee's help in 
remedying this inequity.
    In addition to the preaward and startup costs, IHS is 
refusing to reimburse to us our unreimbursed Contract Support 
Costs from FY96 through FY99 that total over $10 million. While 
not directly involved, we are closely following the recently 
filed class action under which we may be able to recover these 
costs.

Proposed Distribution of IHS's FY2000 Contract Support Funds

    After working on distribution of the $35 million increase 
in FY99 contract support funds, the IHS Contract Support 
Workgroup began consideration of policy changes in response to 
the events of the FY99 appropriations debate and directives 
concerning contract support. The workgroup deliberations have 
resulted in a proposed revised circular. At the outset it is 
important to note that the proposed new circular accepts less 
than full funding and then proceeds to explain how the agency 
will distribute limited funds. It is not acceptable to us that 
the agency presumes these costs will be permanently 
underfunded.
    The circular divides contract support funding into three 
pools: (1) an ISD pool for new or expanded contracts (``Pool 
1''); (2) a pool for the Contract Support Cost needs of ongoing 
programs (``Pool 2''); and (3) a pool comprised of any 
additional funds available for shortfall (``Pool 3''). Perhaps 
the most significant aspect of the proposed change in policy is 
that the IHS will now look at a tribe's total contract support 
need and funding whereas in the past the IHS has considered 
only the tribe's contract support need associated with its new 
or expanded contract. The ISD fund will be used to pay contract 
support needs associated with new or expanded contracts at a 
rate as close to full funding as possible. A tribe's ongoing 
shortfall will not be paid from ISD funds however. This method 
in essence seeks to bring tribes from the bottom up to as close 
to full funding as appropriations permit.
    Other than IHS's refusal to pay our preaward and startup 
costs and with the threshold caveat that IHS can only do so 
much with less than full funding, we have not objected to most 
of IHS's proposed new contract support policy. Of the options 
discussed, and if one accepts contract support will not be 
fully funded, the new policy goes the farthest toward funding 
all tribes' Contract Support Cost needs and moving towards 
total equity while minimizing disruption to existing programs. 
We want to be assured, however, that once funded, our level of 
funding will not be reduced unless Congress fails to 
appropriate a recurring level of funds. Another absolutely 
critical aspect will be timely information gathering and 
inclusion of tribes' true future needs in IHS's budget 
requests. We do, however, object to annual redistribution 
within IHS Areas as we believe this favors some areas over 
others and would like to see IHS return to timely national 
redistribution of contract support funds.
    The success of the new policy will be largely dependent on 
adequate annual appropriations to fund tribes' true contract 
support needs. Most fundamentally, we reject the underlying 
premise of the IHS circular--that it is acceptable to have a 
regime where a tribe contracts to operate Federal programs for 
the Federal Government serving Federal beneficiaries without 
the minimally necessary funding to administer those Federal 
programs. This point is especially important when compared to 
direct services provided by IHS that have full ``Contract 
Support Cost'' funding.

NCAI and GAO Reports

    Community representatives provided information to the GAO 
for its consideration in its report and followed closely the 
work of the NCAI Contract Support Workgroup. We believe each 
report makes a significant contribution to the ongoing debate 
and solution of contract support issues.
    NCAI Report. The NCAI Report provides a very thorough and 
well-written documentation of the history and development of 
the current state of Federal Indian Self-Determination and 
contract support funding policy. We concur with its findings 
and wish to emphasize our support for the following points.
    The report emphasizes in several places the need for full 
funding of tribes' Contract Support Costs. The report documents 
past failures on the part of the BIA to implement 
``grandfathering'' or flat rates in large part because such 
changes were not accompanied by initial full funding. The 
report also recognizes that in projecting future need, annual 
inflationary increases must be added to the recurring amounts 
and that contract support requirements should be included with 
all program increases and new initiatives. NCAI's 
recommendation that the agencies continue to report fully to 
Congress tribes' contract support needs is crucial to obtaining 
and maintaining full funding.
    The report confirms that the indirect cost rate negotiation 
system has proved the most workable in light of providing some 
uniformity for determining diverse tribal needs. The report 
further confirms the increases in contract support need are due 
to increased contracting and the associated increase in 
contract support needs. We urge that the Administration and 
Congress further acknowledge that these increases are 
legitimate and necessary costs of the Federal policy of tribal 
self-determination. And it has been our experience that the 
benefits--in terms of increased access, improved services and 
improved health status that come with the devolution of Federal 
authority to local tribal governments--more than compensate for 
any marginal increase in total program cost. This fact should 
be recognized to put in context the House Appropriations 
Committee's concern that increases in contract support are at 
the expense of program increases. To the contrary, it is the 
underfunding of Contract Support Costs that comes at the 
expense of programs, as tribes are compelled to divert program 
resources to cover the government's contract support debt. As 
noted in the NCAI report, we believe that further development 
of the idea of ``benchmarking'' should be made and that through 
such benchmarking, we may be able to achieve greater 
consistency while preserving sufficient discretion to allow for 
tribes' diverse needs and accounting systems.
    GAO Report. We believe the ultimate value in the GAO report 
is that it confirms that the contract support dilemma for 
tribes is real, that is, the failure to fully fund Contract 
Support Costs adversely affects our local programs and our 
ability to efficiently administer them. The report recognizes 
that this is a result the authorizing Committees have 
repeatedly sought to avoid and eliminate in amendments to the 
Indian Self-Determination Act, and is absolutely counter to 
successful implementation of self-determination policy. Also, 
importantly, the report validates the longstanding tribal 
position that increases in Contract Support Costs are 
attributable to increased contracting rather than 
uncontrollable increases in indirect cost pools and rates. In 
fact, the report concludes tribes' rates have remained 
relatively stable over the last ten years at approximately 25 
percent. The report also clarifies some of the common 
misperceptions about differing rates among tribes--an important 
point in dispelling the notion that some tribes manipulate 
their rates or operate inefficiently.
    Contrary to the GAO report's reluctance to make predictions 
about future Contract Support Cost needs, however, we believe 
the stability in rates coupled with the agencies' hopefully 
improved data concerning tribes' contract support needs should 
enable the agencies to fairly accurately predict new contracts 
coming on line. In fact, we view it as a function of the 
agencies to know and guide tribes through the initial 
contracting processes--this should include working with tribes 
to include their future contract support needs in IHS's budget 
requests.
    The GAO report further confirms the effect of shortfalls on 
tribal programs. The documentation in the report mirrors our 
experience. Our Health Care Corporation's transition from 
Federal to Tribal operation required extensive development of 
administrative--personnel, procurement, finance, information--
systems and training. To function effectively and efficiently, 
change is still underway and more is necessary to upgrade 
antiquated medical records and information gathering systems 
which are absolutely critical in accessing information 
concerning the number of patient visits, reasons for patient 
visits, and the number of visits per diagnosis. The law 
requires and we were promised reimbursement for these items. 
After three, almost four, years of operating with from none to 
just over 50 percent of our IHS approved contract support need, 
the lack of contract support funding threatens the 
Corporation's financial stability. We are faced with options 
such as reductions in services and limitations on our ability 
to expand into other areas of health care delivery. The GAO 
report is useful in confirming the effects of shortfalls on 
tribes. This information now needs to be taken seriously and 
used to support the need for full funding to avoid these 
detrimental effects on our programs, and to recognize that some 
initial investment in our infrastructure is necessary to 
realize increased administrative efficiencies such as more 
effective patient referrals and maximizing billing of third 
party resources.
    And last, the GAO offers four alternatives for funding 
tribes' contract support needs. Of these alternatives, we favor 
options one and four. The first option is to fully fund 
Contract Support Costs. We believe this option, coupled with 
several of the recommendations in the NCAI report, would meet 
both tribal and Federal interests on this issue. For instance, 
with the development of benchmarking and revisions to OMB 
circulars recognizing cost and audit issues unique to tribal 
operations, we believe a greater degree of consistency can be 
achieved so far as the allowable items included in tribes' 
indirect cost pools for operating similar programs. Intertribal 
collaboration, such as our arrangement with the nearby Ak-Chin 
Indian Community, should also be explored where feasible to 
reduce administrative costs and maximize economies of scale. 
Accompanying these tribal efforts toward consistency and 
economy, the Federal Government must recognize tribes' true 
costs of operating Federal programs. Toward this end, we 
encourage the BIA to revise policies that ignore or dilute its 
responsibility for known costs, such as BIA's failure to pay 
direct Contract Support Costs and dilution of its 
responsibilities for indirect costs attributable to BIA 
programs as in the Ramah case.
    We also support further development of option 4, which is 
to incorporate contract support into tribes' program budgets--
essentially consolidating, ``grandfathering,'' or ``base 
budgeting'' contract support and program funding. We strongly 
believe, however, for this option to be successful, the amount 
of contract support consolidated in the first year must be full 
funding of contract support need. There also must be provision 
for annual increases in the consolidated amount tied to a 
nationally recognized inflationary index, and some provision 
for administrative increases tied to significant program 
increases. With these provisions, we believe option 4 offers 
considerable potential toward meeting tribal and Federal 
concerns. Our Health Care Corporation is an ideal candidate to 
demonstrate the potential success of Option 4, and we would be 
pleased to continue to work with the Committee on such a 
demonstration.

                                SUMMARY

    In summary, the following are the beliefs and 
recommendations of the Gila River Indian Community:

    <bullet> Contract Support Costs for IHS and BIA programs need to be 
funded at the 100 percent level.
    <bullet> Inadequate funding of Contract Support Costs results in 
funds being shifted from direct service provision to support.
    <bullet> Past attempts by IHS and BIA to equitably distribute 
partial Contract Support Costs have not worked and have in fact caused 
harm to the Gila River Indian Community contracted programs.
    <bullet> Current attempts by IHS and BIA to develop new, ``fairer'' 
policies for distributing less than full funding for Contract Support 
Costs are built on the wrong premise and represent just a band-aid 
solution; they do not solve the underlying problem.
    <bullet> 0The GAO report on Contract Support Costs was an objective 
report with supportable recommendations. We support recommendations 1 
and 4 full funding for Contract Support Costs, and incorporating these 
costs into contract program budgets.
    <bullet> We would be willing to participate in a pilot program that 
implements a combination of GAO recommendations 1 and 4.
    <bullet> There must be a single, consistent Federal policy dealing 
with Contract Support Costs that applies to any and all self-
determination/self-governance contracting by tribes.

CONCLUSION

    In conclusion, the Gila River Indian Community believes strongly 
that full Contract Support Cost funding is necessary to continue paving 
the road to self-determination that the Congress outlined and that we 
have been traveling for almost 25 years now. In our health programs, we 
have directed the maximum amount of resources into direct patient care 
and specifically toward the worst health problems facing our Community. 
With our BOR program, we have made more progress toward a functioning 
water delivery system in the four years we have operated under a self-
governance agreement than under past Federal operation. In law 
enforcement, we have a more stable and reliable police department than 
when we relied upon the BIA to operate it. We ask that you help us 
preserve and continue the success of our self-governance by committing 
to contract support policies that first acknowledge our contract 
support needs as legitimate and necessary and then fully fund these 
needs.
    As our experience with the IHS shows, the past contract support 
policy has served to penalize us for contracting. We contracted with 
the hope of reversing the reductions in services we experienced in the 
early 1990s when the IHS budget failed to keep pace with inflation and 
other cost factors. After four years of minimal Federal Contract 
Support Costs, however, we are facing the harsh reality of imposing 
service reductions ourselves to cover necessary but unfunded 
administrative costs and infrastructure improvements. Full funding of 
Contract Support Costs will help Congress achieve its stated goal of 
``supporting and assisting Indian tribes in the development of strong 
and stable tribal governments,'' able to operate programs at a par with 
other Federal agencies. Tribes have repeatedly proven that the self-
determination framework created by Congress can build tribal 
administrative capacity, reduce Federal bureaucracy, and, most 
importantly, improve the quality of life of tribal members.
    As both the GAO and NCAI reports confirm, the current contract 
support system is sound in that the costs incurred are reasonable and 
legitimate, and necessary to prudently administer Federal programs at 
the local level. Now it is time to make the funding part of the system 
work by doing whatever is necessary in the appropriations system to 
assure these Federal obligations are fully paid each year. We can 
refine the system through benchmarking and other efforts aimed at 
consistency and economy.
    Our contracted programs have suffered from years of less-than-100 
percent funding for the necessary Contract Support Costs. Gila River 
has been patient, hoping that with appropriate funding and guidance 
from the Congress and consistency of application by BIA and IHS, that 
the Contract Support Costs crisis could be resolved. As you are aware, 
other tribes, whose patience has run out, are moving beyond Congress 
and into the courts to seek remedies to this problem. If there is not a 
timely solution by Congress and the Administration in the area of 
Contract Support Costs, we may likewise be forced to seek judicial 
help.
    In these times of significant budget surplus, we encourage the 
Federal Government, in fulfillment of its legal responsibility, to 
commit to fully funding and supporting Contract Support Costs.
    Mr. Chairman and members of the Committee, thank you for the 
opportunity and honor of testifying today on this issue on which basic 
support for our community service programs depends. We thank you for 
your past support and look forward to continuing to work with the 
Committee as it deliberates over a sustainable solution to contract 
support issues.

[GRAPHIC] [TIFF OMITTED] T0802.001

    The Chairman. Mr. Williams. Orie, you are up.

  STATEMENT OF ORIE WILLIAMS, EXECUTIVE VICE PRESIDENT, YUKON-
          KUSKOKWIM HEALTH CORPORATION, BETHEL, ALASKA

    Mr. Williams. Good morning, Mr. Chairman, committee 
members, and Congressional staff.
    Before I go on, Mr. Chairman, I would certainly like to 
thank you and Congressman Hayworth for allowing their staff to 
join the Indian Health Care Improvement Act. We were working 
out the differences and listening to the tribal concerns last 
week in health care improvement. Your staff did an excellent 
job, and I wanted to say that publicly before I start.
    Mr. Chairman, thank you for the opportunity to testify once 
again before your Committee on what Congress in 1987 called 
``the single most serious problem with implementation of the 
Indian self-determination policy,'' namely the failure to fully 
fund contract support costs.
    For the record, my name is Orie Williams, and I am the 
Executive Vice President of the Yukon-Kuskokwim Health 
Corporation. I am here this morning with our legal counsel and 
expert in this field, Lloyd Miller, who is well-known to this 
Committee. I am also happy to introduce to you Mr. Paul 
Manumik, on my left, the tribal elected member of the Yukon-
Kuskokwim Health Corporation board of directors and the 
chairman of the hospital governing board. Mr. Manumik lives in 
his home in Sheldon's Point, Alaska, and has served his Yupik 
Eskimo tribal members for 15 years.
    Our health care organization was created by and is 
controlled by 58 federally recognized Alaskan Native tribal 
governments, their members, and their village communities. In 
financial terms, we are the second largest privately operated 
Indian Health Service program in America, operating $40.2 
million in IHS government programs alone.
    In my testimony last February, I reminded the Committee of 
the daunting conditions that we face in carrying out the task 
of delivering Indian Health Service government programs to the 
beneficiaries of those programs. Recall that we serve: a 
roadless area the size of South Dakota; 23,000 people scattered 
in 58 villages; a population where 54 percent are Medicaid 
eligible, including 90 percent of all pregnant women and 
children, and where 44 percent are unemployed--in some villages 
unemployment is over 80 percent; villages most of whose primary 
sewer system consists of one six-gallon bucket in each home; 
post neonatal mortality is more than double the average U.S. 
Rate, death by suicide is four times the national rate, fetal 
alcohol syndrome and fetal alcohol effect are rampant, and the 
lack of adequate sewer and water systems has left our 
communities victim to every known infectious disease and higher 
rates of tuberculosis, even as we enter the 21st century.
    Rather than go further, I respectfully refer the Committee 
to my testimony submitted February 23, 1999, which I am 
submitting again today.
    The point is that we are operating the government's 
programs, including a large government hospital, for the 
benefit of the Federal beneficiaries of those government 
programs. If independent Department of Health and Human 
Services Division of Cost Allocation says it takes $14.9 
million to administer that program, then that is what is we 
should be paid.
    And yet, this year we are once again underfunded by $2.3 
million. Once again we cannot fill positions in our accounting 
department and in our administrations department and in support 
of our hospital. This is not just a crisis in 1999. It has been 
ongoing since 1992.
    The GAO June, 1999, report is most welcome because it 
confirms what we have been saying all along. First, that 
contract support costs are legitimate and necessary and fairly 
determined; and, second, that without full payment of these 
costs our people are actually being penalized by the transfer 
of Federal health care programs down to the local level.
    Mr. Chairman, we are trying to do our part to reduce the 
Federal bureaucracy and enhance local empowerment and economic 
development, but why, I ask, should this require such a heavy 
price in the reduction of direct services to our people?
    Our tribal organization has remained intimately involved 
this past year both in the work of the National Congress of 
American Indians and the General Accounting Office study. Based 
upon that involvement, our experience over the years, and the 
analyses undertaken by our financial and legal advisors, we 
offer these following recommendations for addressing the many 
issues that involve the contract support system:

    First, it is time for the appropriations process to finally 
catch up with the legal framework established by Congress 25 
years ago. Since we are talking here about government contracts 
and legally binding obligations, and since the Indian Self-
Determination Act already specifies that tribes are, quote, 
``entitled'' to receive contract support to carry out these 
programs, the law should be changed as necessary to also make 
the payment of contract support an entitlement in the 
appropriations sense of that word. Once those amounts are set, 
whether it be by the Department of Health and Human Services 
Division of Cost Allocation or the Department of the Interior 
Office of Inspector General, the tribe as a contractor would 
know that it will be fully paid for performing that contract, 
no ifs, ands or buts about it.
    The cost of doing this would be negligible in the national 
arena, although it would be critical to us--not just for tribes 
but to protect government program beneficiaries--over 1 million 
American Indian and Alaska Native people--from getting the 
short end of the stick as we dismantle the Federal Government 
and bring it down to the local level.
    Second, if for whatever reason funding at the national 
level is insufficient, the first priority should be stability 
as recognized in the Indian Health Service system. Tribal 
organizations should at least receive the same amount they 
received the preceding year, and they should not be the victim 
of the peculiar BIA option that pays you an unknown amount in 
the 11th or 12th month of the year when all of your expenses 
have already been incurred. The BIA system is destabilizing, 
and therefore I especially praise your leadership, as well as 
Congressman Regula's regular sensitivity, to the fact that the 
simplified pro rata system in the end is not sensible. If a 
health care system needs nothing else, it needs stability and 
predictability.
    Third, we unequivocally oppose GAO's alternatives 2 and 3. 
Alternative 2 would gut the Act by making contract support 
entirely dependent on the highly political budget and 
appropriations process. And alternative 3 would ignore the 
enormous differences among tribal programs. Obviously, we are 
not all the same, and operating a 51-bed hospital and 47 
clinics in a roadless area the size of South Dakota demands 
different administrative costs than operating a small community 
health program near major metropolitan areas.
    Fourth, we recommend that the Committee consider 
authorizing a short demonstration project to see if the GAO's 
fourth recommendation for a stable, combined funding amount can 
work. Yes, there are details to be worked out, such as 
inflation adjustments and the like, but we agree that it holds 
real promise for accomplishing an unimpeachable goal: to 
encourage greater efficiencies in health care administration by 
actually rewarding those efficiencies.
    Fifth, we agree with the NCAI that some standardization may 
be possible among some elements of contract support. It is true 
that all tribal organizations are different; and, like States 
and local governments, all have a right to design their systems 
to meet their unique needs. Even still, some standardization 
efforts that are sensitive to our differences could help 
moderate the highs and lows and reassure Congress that all 
tribes in the end are treated fairly, neither receiving less or 
more than necessary to prudently administer these government 
programs under local conditions. NCAI has proposed the so-
called benchmarking idea, and we would like to see that idea 
funded, developed, and field tested over the next year or two 
by the two departments working jointly.
    Finally, let me note that we obviously oppose any 
suggestion that Indian Health Service or BIA be delegated any 
legislative authority whatsoever in this area to write 
regulations, whether it is through negotiated rulemaking or 
otherwise. If the last 25 years have shown us anything, 
including all of the litigation over the past 5 years, it is 
that Congress wisely decided in 1994 to remove any agency 
discretion or authority in this very delicate area.
    May I continue, Mr. Chairman?
    The Chairman. Yes.
    Mr. Williams. Yes, these agencies are committed to tribal 
self-determination, but there are also bureaucracies who have 
had time to seek to perpetuate their own existence. Granting 
these agencies broad regulatory authority over funding issues 
will, in our opinion, only serve to retard the process of 
downsizing and self-determination, and we therefore firmly 
oppose it.
    On a related note before closing, I would like to add if 
the goal here is to improve Indian health care, then one 
additional means outside the technical contract support arena 
is to enact the many technical and mechanical improvements that 
are contained in the permanent self-government legislation that 
was recently marked up by this Committee, namely H.R. 1167. 
Although we do believe that the marked-up bill can be improved 
upon even further, and we would be pleased to share our 
recommendations with the chairman, we also believe this is a 
measure whose time has come. We therefore respectfully ask that 
it about brought to the floor at the earliest opportunity.
    Thank you, Mr. Chairman, for the honor of testifying today. 
While I am here, I would also like to acknowledge and thank the 
efforts of the chairman and Committee members who worked so 
hard over the years who helped alleviate many of the deplorable 
conditions facing our communities.
    I would like to especially once again recognize Cynthia 
Ahwinona of Congressman Young's staff and Ms. Elizabeth Connell 
of Senator Stevens's staff for their assistance.
    Mr. Chairman, if you would permit, I would like our 
hospital chairman, Mr. Manumik to add a comment or two, and 
then allow Mr. Miller to comment on one aspect of this 
proposal.
    The Chairman. Without objection.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T0802.002
    
    [GRAPHIC] [TIFF OMITTED] T0802.003
    
    [GRAPHIC] [TIFF OMITTED] T0802.004
    
    [GRAPHIC] [TIFF OMITTED] T0802.005
    
    [GRAPHIC] [TIFF OMITTED] T0802.006
    
    [GRAPHIC] [TIFF OMITTED] T0802.007
    
    [GRAPHIC] [TIFF OMITTED] T0802.008
    
    [GRAPHIC] [TIFF OMITTED] T0802.009
    
    [GRAPHIC] [TIFF OMITTED] T0802.010
    
    [GRAPHIC] [TIFF OMITTED] T0802.011
    
    [GRAPHIC] [TIFF OMITTED] T0802.012
    
    [GRAPHIC] [TIFF OMITTED] T0802.013
    
    [GRAPHIC] [TIFF OMITTED] T0802.014
    
    [GRAPHIC] [TIFF OMITTED] T0802.015
    
    The Chairman. Go ahead.

           STATEMENT OF PAUL MANUMIK, CHAIRMAN, YKHC

    Mr. Manumik. Thank you, Mr. Chairman, and good morning and 
Quyana. My name is Paul Manumik, chairman of the Yukon-
Kuskokwim Delta Regional Hospital, Bethel. I would like to say 
a few words in Yupik.
    The Chairman. Without objection, although the reporter may 
have a difficult time of putting them down. So do it real slow 
and go ahead.
    Mr. Manumik. Thank you, Mr. Chairman.
    This will be given to the transcriber so that he can write 
the proper words in the proper translation.
    [Speaking in Yupik.]
    Language, bills, laws, this is where it all begins, right 
here in your hands.
    Then we, the Native American Indian, Alaskan Natives, take 
it from your hands, revise it and amend the language to meet 
our needs and graciously hand it back to you for your greatly 
needed blessing so that we can administer the right health care 
services to our Native American Indian, Alaska Natives.
    Quyana.
    [End of translation.]
    I would like to remind the Committee that the contract 
support cost crisis comes on top of a severe shortfall in our 
programs. According to the Indian Health Service Work Group on 
Level of Need Funded, the average funding for Native American 
people is a staggering 54 percent of what is in fact necessary 
to meet our people's needs.
    Nationally, average Americans receive $2,098 per capita. 
For veterans, including many in my own family, the average 
Federal expenditure for health care is higher. And, at that, 
many in Congress today are still calling for emergency spending 
increases to meet our veteran's needs. But in Indian country, 
Federal spending per capita is a mere $1,310.
    Mr. Chairman, this is a terrible situation, one that is far 
more severe in our villages, that cries out for attention. 
Helping us address the contract support shortfall will 
certainly help. But, as these statistics show, we still have a 
long way to go in meeting the Nation's commitment to the first 
Americans.
    Thank you for your patience, and once again we invite the 
full Committee's and your spouses to come see firsthand our 
beautiful country, our wonderful people, and the severe 
challenges that we face today. Next April, we will mark 30 
years of tribally administered health care in our region, and 
we invite you to join us for a celebration and tour of our 
villages.
    Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Manumik follows:]

   Statement of Paul Manumik, Chairman of the Yukon-Kuskokwim Delta 
                           Regional Hospital

    Good morning, Mr. Chairman and Quyana. My name is Paul 
Manumik, Chairman of the Yukon-Kuskokwim Delta Regional 
Hospital.
[GRAPHIC] [TIFF OMITTED] T0802.016

    I would just like to remind the Committee that the contract 
support cost crisis comes on top of a severe shortfall in our 
programs. According to the Indian Health Service Work Group on 
Level of Need Funded, average funding for Native American 
people is a staggering 54 percent of what is in fact necessary 
to meet our peoples needs.
    Nationally, average Americans receive $2,980 per capita. 
For veterans, including many in my own family, the average 
Federal expenditure for health care is higher--and at that, 
many in Congress today still call for emergency spending 
increases to meet our veterans needs. But, in Indian Country, 
Federal spending per capita is a mere $1,310.
    Mr. Chairman, this terrible situation--one that is far more 
severe in our home villages--cries out for attention. Helping 
us address the contract support shortfall will certainly help, 
but as these statistics show, we still have a long way to go in 
meeting the Nation's commitment to the First Americans.
    Thank you for your patience, and we once again invite the 
full Committee and your spouses to come see first hand our 
beautiful country, our wonderful people, and the severe 
challenges we face. Next April we will mark 30 years of 
tribally administered health care in our region, and we invite 
you to join us for our celebration and a tour of our villages.

    The Chairman. Mr. Miller.

           STATEMENT OF LLOYD BENTON MILLER, ATTORNEY

    Mr. Lloyd Miller. Thank you, Mr. Chairman, Congressman 
Hayworth.
    For the record, my name is Lloyd Miller. I am a lawyer with 
the law firm of Sonosky, Chambers, Sachse, Miller and Munson.
    Today you have heard some calls for adjustments in the 
system so that the self-determination funding process is 
finally brought into conformity with the government's legal 
obligations to tribal contractors under the Indian Self-
Determination Act. I have been asked to make a few remarks on 
this one legal issue.
    In 1988, the Indian Self-Determination Act was massively 
overhauled precisely because the BIA and the Indian Health 
Service were not paying contract support costs required for 
tribal contractors to carry out these Federal programs. In an 
entire chapter, the Senate reported, devoted to this one issue, 
and no issue received greater attention in the Senate or House 
committee than this one issue. As the Senate committee noted, 
no other problem was more on Congress' mind than, quote, the 
consistent failure to fully fund tribal indirect costs.
    Now, in the course of deliberations in 1988, I was 
reviewing these recently, and I came across a statement by the 
former chairman of that Committee, Senator Inouye, which I 
thought would be helpful to repeat here briefly. Senator Inouye 
said this in a 1988 hearing:

          ``a final word about contracts: I am a member of the 
        Appropriations Committee, and there we deal with 
        contracts all the time. Whenever the Department of 
        Defense gets into a contract with General Electric or 
        Boeing or any one of the other great organizations, 
        that contract is carried out, even if it means 
        supplemental appropriations. But strangely in this 
        trust relationship with Indians they come to you maybe 
        half way or three quarters through the fiscal year and 
        say, quote, sorry, boys, we don't have the cash, so 
        we're going to stop right here, after you put up all 
        the money. At the same time you don't have the 
        resources to sue the government. Obviously, equity is 
        not on your side. We're going to change that, also.''
    That is what Senator Inouye said, and that is what he did. 
Congress did change the Act, by extensive amendments to the 
funding amendments of section 106, amendments to the shortfall 
reporting and supplemental appropriation reporting provisions 
of 106, the model contract in 108 that again guarantees 
funding, and the legal remedies in section 110.
    Now, today the world is different. Although the agencies' 
shortcomings in the appropriations have not changed, thanks to 
these amendments the Courts have stepped in and come in to fill 
the void. They have consistently awarded damages against the 
agencies, just as Congress intended. So it is at the Interior 
Board of Contract Appeals, as the Congressman mentioned, that 
has expertise in this area, and that board has ruled under 
simple contract law, and this is a quote from the decision, 
that ``the government's obligation to fund these indirect costs 
in accordance with the contract remains intact, despite the 
dollar ceiling in the applicable appropriations Act.''
    And a recent Federal court on July 22nd had this to say: 
``regardless of agency appropriations, nothing in the Act 
limits the agencies' obligation to fully fund self-
determination contracts.''
    The Courts and the board have awarded damages, and 
additional damages may be assessed in additional litigation 
still pending against the IHS and the BIA.
    This is the legal framework in which the tribal witnesses 
today come before this distinguished Committee and respectfully 
urge that perhaps the funding mechanism for contract support 
costs in Congress ought to be changed. After all, these are not 
discretionary activities. They are contracted Federal 
Government programs being carried out on behalf of the United 
States for the Federal beneficiaries of those Federal programs.
    If tribal contractors are to accomplish that Federal 
mission, the least Congress can do is to assure payment 
promptly. Prompt payment should not be dependent on the 
politics of the budget process, the competing demands within 
the agencies and within OMB, or the fortitude of a few tribal 
contractors to take on the United States in litigation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lloyd Miller follows:]

 Statement of Lloyd Benton Miller, Sonosky, Chambers, Sachse, Miller & 
                                 Munson

    Thank you Mr. Chairman. For the record, my name is Lloyd 
Miller and I am a partner with the law firm of Sonosky, 
Chambers, Sachse, Miller & Munson.
    Today you have heard a call for adjustments so that the 
self- determination funding process is finally brought into 
conformity with the government's legal obligations to tribal 
contractors under the Indian Self-Determination Act. I have 
been asked to speak briefly to this particular legal issue.
    In 1988 the Indian Self-Determination Act was massively 
overhauled--precisely because the BIA and IHS were not paying 
the contract support costs required for tribal contractors to 
carry out these Federal programs. As the Senate Committee 
noted, no other problem was more on Congress' mind than ``the 
consistent failure to fully fund tribal indirect costs.'' S. 
Rep. No. 100-274 at 8.
    In winding up his remarks at the hearings on the 1988 
amendments, then Chairman Inouye of the Senate Indian Affairs 
Committee put the problem well:

        A final word about contracts: I am a member of the 
        Appropriations Committee, and there we deal with contracts all 
        the time. Whenever the Department of Defense gets into a 
        contract with General Electric or Boeing or any one of the 
        other great organizations, that contract is carried out, even 
        if it means supplemental apporpriations. But strangely in this 
        trust relationship with Indians they come to you maybe halfway 
        or three quarters through the fiscal year and say, ``Sorry, 
        boys, we don't have the cash, so we're going to stop right 
        here'' after you've put up all the money. At the same time you 
        don't have the resources to sue the Government. Obviously, 
        equity is not on your side. We're going to change that also.
    Hearing on S. 1703 Before the Senate Select Committee on Indian 
Affairs, 100th Cong., 1st Sess. 55 (Sept. 21, 1987).
    And, Congress did change that, by extensive amendments in 1988 and 
1994 to the funding provisions of section 106 of the Act, the shortfall 
and supplemental appropriations reporting provisions of section 106, 
the model contract provisions of section 108, and the critical court 
remedies of section 110.
    Today, the world is different. Although the agencies' shortcomings 
in the appropriations process have not changed, thanks to these 
amendments the courts have come in to fill the void. They have 
consistently awarded damages against the agencies, just as Congress 
intended. And so it is that the Interior Board of Contract Appeals 
(which has recognized expertise in this area) has ruled, under simple 
contract law, that ``the Government's obligation to fund these indirect 
costs in accordance with the [self-determination] contract remains 
intact, despite the dollar ceiling in the applicable appropriations 
act.'' Appeals of Alamo Navajo School Board and Miccosukee Corp., 1997 
WL 759411 Dec. 4, 1997) (slip op. at 45). Similarly, the Federal courts 
have ruled that ``regardless of agency appropriations, [nothing in the 
Act] limit[sl [the agencies] obligation to fully fund self-
determination contracts.'' Shoshone-Bannock Tribes v. Shalala, No.CV 
96-459-ST ---- F. Supp. ----, 1999 WL ---- (July 22, 1999) (slip op. at 
7). The courts and the Board have awarded damages, and additional 
damages are still awaiting assessment in class action suits now pending 
against both agencies.
    This is the legal framework in which the tribal witnesses today 
come before this distinguished Committee and respectfully urge that the 
funding mechanism for contract support costs be changed. After all, 
these are not discretionary activities; they are Federal Government 
programs, being carried out on behalf of the United States for the 
Indian beneficiaries of those programs.
    If tribal contractors are to accomplish that Federal mission, the 
least Congress can do is assure that payment for services rendered will 
be forthcoming. Prompt payment must not be dependent on the politics of 
the budget process, competing demands within the agencies and within 
OMB, or the fortitude of tribal contractors to take on the government 
in litigation.
    Thank you Mr. Chairman. I am available to answer the Committee's 
questions.

    The Chairman. I want to thank the panel on your very good 
testimony. I can assure the panel that we are going to be 
working closely with Senator Stevens and Senator Inouye and 
myself, J. D. Hayworth, et cetera, to try to see if we can't 
revive the 1988 Act and make it work. Sometimes we don't go as 
far as we should.
    Orie, last year we had a year short--what this year in 
contract support--what would it cost? It has been estimated $5 
million for contract support?
    Mr. Williams. For the Yukon-Kuskokwim Health Corporation, 
we are short $2.3 million of what we have negotiated with the 
office of cost allocation.
    The Chairman. What I am suggesting is, if you weren't 
operating this Yukon-Kuskokwim health association, the Federal 
Government by law has a responsibility, if they would actually 
have the $5 million, to operate it; is that correct? That is 
what the estimated cost is, the contract costs, correct? What I 
am leading up to--you are supposed to answer this correctly. 
They are actually shortchanging you. You are contracted with 
them, but if they were doing it, it would cost them about $5 
million.
    Mr. Williams. I am afraid it would cost them more than 
that. They wouldn't have the system, number one. It would cost 
them at least that much.
    The Chairman. There have been statements about the pro-rata 
formula. If that had been put in place last year, what would 
have it cost Yukon-Kuskokwim Health Corporation as far as money 
and jobs?
    Mr. Williams. Money would have cost $2.3 million at a 
minimum. Up to $4.6 million depending on what appropriation or 
lack of appropriation would have happened. It would have cost a 
minimum of 80 jobs, most of those jobs being welfare to work 
mothers singly supporting their children without spouses.
    The Chairman. What would be the effect on the health care 
itself?
    Mr. Williams. We have suffered tremendously. It would be 
like going into battle and sending your people in the front 
line to provide health care and have no support. It would be 
like the Congressman and Congresslady sitting on this Committee 
without any staff support whatsoever.
    The Chairman. Sometimes that might be a blessing, but I 
would not always say that.
    How long has the Yukon-Kuskokwim health care been suffering 
with insufficient contract support? You have been in which is 
how long now?
    Mr. Williams. We have been in contracting for 8 years 
September 30. We contracted the hospital in 1991 and took it 
over October 1, 1992. We have had claims in for start-up costs 
of about $7.6 million since 1992.
    The Chairman. We will revamp the Act. So you are short 
about $7.5 million.
    Mr. Williams. Plus the $2.3 that would bring us to 100 
percent of negotiations yet.
    The Chairman. You filed a claim for Yukon-Kuskokwim 
contract costs. What happened to those claims?
    Mr. Williams. They are still pending. We had several 
teleconferences on it, and they are still pending out in the 
contracts division of the----
    The Chairman. When you file in court--Mr. Miller, has this 
gone to court?
    Mr. Lloyd Miller. No. The Yukon-Kuskokwim Corporation's 
claim, they haven't heard anything over a year. It was 3 years 
since it was filed. The law requires----
    The Chairman. What is the delay in that? You will 
eventually have to take them to court?
    Mr. Lloyd Miller. The only way to recover the damages if 
they don't grant the claims is to take it to court.
    The Chairman. Who is handling the claims? IHS?
    Mr. Lloyd Miller. Division of grants and contracts of the 
Indian Health Service, yes.
    The Chairman. How do we expedite that?
    Mr. Lloyd Miller. I am not sure this Committee can. The 
Committee may want to direct some questions to the director of 
the Indian Health Service regarding the process for assessing 
those claims. By law, they are deemed denied by now, and YKC 
could go forward and file suit against the agency if they chose 
to. But litigation is expensive, a distraction, and they are 
hoping the claim would be granted.
    The Chairman. You mean you wouldn't have the a little pro 
bono there, Mr. Miller?
    Mr. Lloyd Miller. I am sure that we can work something out.
    The Chairman. I think we have to go back to the statement. 
Mr. Kildee made the same statement in the last hearing that we 
had about duplicating what Mr. Inouye said. This is one reason 
that we are having these hearings.
    Dr. Trujillo and Mr. Gover, we can't reach what Congress is 
directed to do. Maybe we have to go to a different formula as 
far as the total funding. I happen to be one of those people 
that there is a contract, there is an obligation, there is an 
entitlement. Maybe we do have to make this a different way 
because it is a small amount of money.
    Mr. Allen, you said that very well. It is one cruise 
missile. Think about that. We shot 200 cruise missiles in 
Bosnia, 200 in Kosovo. Just think about that money. It is going 
to cost us about--now estimated cost over $200 billion if we 
get involved in the reconstruction. I think you hit the point 
when we talk about subsidy, which--I love my farmers and this 
and that and everything else, but, just think, what we spent in 
that conflict would solve this problem. And it is a legal right 
that should be taken care of.
    My time is up.
    Mr. Udall. Mr. Inslee. Who was here first? Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    I want to extend my appreciation to the panel as well for 
your testimony. I have learned a lot listening to you this 
morning.
    It is nice to find that I am agreeing with the chairman 
today. I like to find ways to agree with my chairman.
    I want to extend a question to Mr. Allen. One of the 
recommendations of the NCAI contract support cost working group 
is for the Congress to study similar tribes to come up with 
ways of benchmarking some of these components that we could 
then use in these future negotiations. What would you envision 
such a study would entail and who do you think ought to conduct 
it?
    Mr. Allen. I think what we need to do is get the 
negotiators for the Department of the Interior and Department 
of HHS together with the tribal leaders and our experts to go 
over the principles that we use to negotiate the indirect cost 
rates and the direct contract support funds or functions and 
the start-up cost so there is a consistency.
    Some have a perception there is an inconsistency about how 
they negotiate it. So the issue is that provides a little more 
certainty in terms of how they are going to negotiate those 
numbers. It makes it easier to project the actual expected cost 
in future years, and we think that a team of that kind of 
effort with the administration to work closely with the tribes 
would be good. We do believe firmly that tribes and our efforts 
need to be in the middle of this because we feel that we are 
the best experts on this matter to come up with those kinds of 
principles.
    Mr. Udall of New Mexico. I think you have already made a 
very good case along those lines. You all are working on this. 
Mr. Williams speaks to it very well, and it makes very good 
sense.
    Mr. Allen. I would also point out something that I forgot 
to mention in my testimony.
    Mr. Gover raised an issue with a proposal they had 
submitted just in the last month. It was something that sort of 
came out of left field on us, and we had not had any notion 
that it was even being developed. We absolutely object to this 
idea. In our opinion, it basically takes the Self-Determination 
Act and the transfer of those functions out to the tribe and it 
creates two different kinds of categories. That is not the 
direction of what the Self-Determination Act is all about. That 
is not a legitimate proposal.
    Mr. Udall of New Mexico. Governor Thomas or Mr. Williams, 
would either one of you care to comment on this proposal as 
well?
    Mr. Williams. I am not prepared to comment at this time on 
it. I would be happy to submit comments on it.
    Mr. Udall of New Mexico. Mr. Allen, I will come back to you 
with another question.
    You talked about the need for financial stability with 
tribes that are supplying these programs and relating this to 
when tribes receive these payments from the BIA and I think you 
also implied from the Indian Health Service. Please talk again 
about the benefits to the tribe when your fundings are received 
at the beginning of the fiscal year rather than, say, the end. 
Is this just merely a cash flow problem or are there other 
issues tied to this funding stream?
    Mr. Allen. The problem is, if the departments or agencies 
hold the contract support funds until the end of the year, the 
tribes have to cover those costs. Those costs come from 
somewhere. So, as a general rule, the costs for the programs 
are being covered, but the costs for the contract support are 
not being covered, so the tribes simply have to use their own 
resources. They have to use whatever means they have, their own 
cash flows. Their hard cash flows are used for other purposes 
or they would have to go out and borrow money in order to cover 
those costs for them to be reimbursed at the end of the year. 
So, essentially, they are banking the Federal Government's 
responsibilities for the Federal Government.
    Mr. Udall of New Mexico. Mr. Williams, would you confirm 
that observation? Do you have anything to add to that?
    Mr. Williams. Mr. Allen is 100 percent accurate. That has 
historically been the way that the tribes have funded their 
programs, out of program dollars that are supposed to provide 
health care to the people. They have had to always augment the 
contract support and admin costs out of programs.
    Mr. Udall of New Mexico. It would seem to strike me that, 
additionally, you find yourself getting further and further 
behind the curve. The best kinds of organizations, whether they 
are government, nonprofit, or for-profit, have some proactive 
component. You are planning for the next year. You are planning 
2 or 3 years out. You know that you have got resources and you 
can invest those funds. It sounds like your hands are tied in 
many cases, and in the end you are also cost shifting and not 
providing the kind of care that the people ought to have and 
that they have been guaranteed.
    Mr. Allen. If I might add one more point, Congressman, on 
the BIA side, because we don't know what the actual number is. 
Are they going to pass the 83 percent of the rate, of what is 
due to the tribe? Is it 85? Is it 79? It is a guessing game for 
the tribe. We have to make our best guess at what are shooting 
for and what they are going to deliver to us at the end of 
September or the end of the fiscal year.
    Mr. Udall of New Mexico. I see the light has changed. If I 
could just make one last comment.
    It just seems like an immense waste to me that then we end 
up in litigation with lawsuits against all of these various 
governmental organizations and then additional money runs out 
the door for lawsuits instead of solving the problem that you 
presented to us today.
    Thank you, Mr. Chairman.
    Mr. Hayworth [presiding] I thank the gentleman from 
Colorado. I won't quote Shakespeare in his reference to juris 
doctors, although the J. D. comes after your name, and I have 
it before my name. I didn't go to law school, and I think that 
is an asset. But I do appreciate my friends from the legal 
profession who are here today. I appreciate the comments of all 
of the panelists, whether they are juris doctors or not, 
because they are on the front lines of this challenge that we 
face.
    I will exercise both the prerogative of the chair and 
congressional prerogatives to address comments and questions to 
my dear friend from the Gila River Indian community, Governor 
Thomas. Governor Thomas, I want to thank you for offering what 
I will call the human equation. Because so often in our 
endeavors here we end up looking at a balance sheet and we talk 
about percentages of this and that and we quote different 
bureaucratic shorthand for different statutes that the Congress 
either follows or sadly chooses not to follow, thus the advent 
of the court cases that my friend from Colorado alluded to 
earlier. But you brought to us the evidence this morning that 
is not unique to your situation, that sadly for members of the 
Gila River Indian Community, more than any other place in the 
United States, according to those experts in public health, 
although we have seen the first Americans dealing with the 
challenges of diabetes and the concerns that grow out of that 
disease.
    While we welcome the efforts of the Speaker and Chairman of 
the Republican Conference and the Minority Whip who, within a 
half hour's time, will talk about outreach on diabetes and we 
welcome that from across the aisle, you bring us physical 
evidence of just how dire the needs are in the Gila River 
Community, not only to you personally but to so many others as 
you offered those chilling and compelling numbers.
    Governor Thomas, you also in your testimony observed that 
your Community is still awaiting disbursement of preaward and 
start-up costs incurred in connection with its takeover of 
hospital and clinic operations in 1995 which were appropriated 
with $35 million in new contract support cost in the fiscal 
year 1999 omnibus appropriations bill. How much, Governor, is 
the Community still awaiting and what has been the explanation 
of the IHS for this delay?
    Governor Thomas. Thank you, Congressman Hayworth, my dear 
friend.
    The Community hasn't been paid $790,000 in pre-awarded 
start-up costs in March of 1999. Granted, IHS delay was based 
on IHS's consideration of legal recommendations. I guess 
lawyers have to make their money, so sometimes the pay-in can 
really hinder us, and it takes a long time to climb out of that 
situation. The legal opinion was that none of the $35 million 
should be used for prior preaward or start-up costs. We are in 
that dilemma right now.
    Mr. Hayworth. And again we offer other apologies to our 
good friend, Mr. Miller, and others. We observe what goes on 
with the legal profession.
    The overview, Governor Thomas, what in your opinion is the 
fundamental problem with contract support costs?
    Governor Thomas. The fundamental problem is the full 
funding, 100 percent. I don't know if you are going to have 
other hearings for the States, for universities and for others 
to come and say we are short-funded contract support costs. I 
don't know which committee hears those. But I am sure this is 
not as drastic as it is for the Indian people across this 
country.
    We are patient. We do not bemoan anybody for that, but we 
are still waiting and we will wait until--we encourage you to 
take actions and also our people who are advocates for us, the 
BIA and IHS, to come forward and, as was stated earlier, to say 
how much it would actually cost and stick with it and not make 
them compromise because it affects all of us in Indian country, 
our health.
    We talked about diabetes. Did you know, on Gila River, 
diabetes is only 50 years old, somewhere in that neighborhood? 
It occurred because of the change in our environment. When the 
settlers came out west we adopted their lifestyles, and it 
occurred at such a rapid pace and now diabetes is in epidemic 
proportions. Not only on Gila River, but I talked to my friend 
here from Alaska and he said the same thing, it is growing. So 
it is because of the change in our environment. It is traumatic 
for us, and that is what we are discovering.
    Mr. Hayworth. Governor, I thank for sharing your personal 
story and what you have seen firsthand in your role leading the 
Gila River Indian Community. Although we have been joking about 
the role of attorneys, that I would be remiss if I did not 
state in all sincerity to Mr. Miller, thank you, sir, for your 
points in going back to the record and pointing out the words 
of Senator Inouye. And again, this is an issue that transcends 
partisan lines. We are all very concerned, and we thank all of 
you.
    Let me turn now to my good friend from Washington State for 
any comments or questions that he might have.
    Mr. Inslee. Thank you, Mr. Chairman.
    Mr. Miller, what is the current status on claims? Is there 
attorneys fees provision in the law if, for instance, the 
Nations prevail in this regard?
    Mr. Lloyd Miller. Yes.
    With regard to the first--the status of the claims, there 
are several claims pending in the Interior Board of Contract 
Appeals, claims pending in Federal district court in Oregon, a 
class action again the Indian Health Service pending in the 
Oklahoma Federal court, a class action against the Bureau of 
Indian affairs pending in Albuquerque, and two appeals, one 
pending in the Ninth Circuit and one pending in the Federal 
circuit here in Washington.
    There is an attorney fee provision that was inserted by 
Congress in 1988 at the behest of Senator Inouye's committee at 
the time. Fees are awarded under the Equal Access to Justice 
Act if a court finds that the government's position was not 
substantially justified. And in the Shoshone-Bannock 
litigation, the court awarded full attorneys fees, which is 
unusual, at the full rate--at an enhanced rate, excuse me, 
against the Indian Health Service because the court found that 
their defense in that case was not even substantially 
justified.
    Mr. Inslee. Are there things we could do procedurally, 
attorney fees or timing of claims or anything that we ought to 
be doing to impose a greater cost on the government if in fact 
it does not comply with its legal obligations?
    Mr. Lloyd Miller. Right now, the only penalty over and 
above the amount of the contract amount not paid would be 
interest. The Committee could look at the rate of interest and 
make its own judgment whether it thinks that the interest 
amount is sufficiently high. The Committee could look at 
penalties if the Committee feels that is an appropriate use of 
the taxpayers funds to further encourage the agencies to 
comply.
    Right now, the agencies really don't have an incentive, 
surprisingly to me, to settle cases. I do a fair amount of 
litigation, much more than that appearing in this great 
committee room. When you litigate against a private party 
everybody understands that there are risks all the way around. 
We assess our cases and try to find some accommodations. 
Sometimes you can't, but usually you do. Or you get to a range.
    But I have found consistently over 20 years of practicing 
that the litigation against the Department is entirely 
different. They don't have a sense of the cost of litigation. 
That is handled by the Department of Justice. They don't have a 
sense of cost and the distraction of the agency, and they will 
take you to the moon to resist paying that claim.
    We have claims where, as I say, where the Justice 
Department position was found not even to be sufficiently 
justified. That is bordering on frivolous. Yet the Department 
is going forward, taking appeals. We offered to settle those 
cases even though we want 100 cents on the dollar. The 
Department has not even graced that with a counteroffer.
    Mr. Inslee. We are going to do what we can to expedite 
these. I am going to work with the chair to see if there are 
ways to do that.
    Chairman Allen, I notice in your testimony that as far as 
direct costs of Workers' Compensation and unemployment 
insurance, there is a suggestion that that be paid and that BIA 
recognized a responsibility. What has BIA said, and I am sorry 
if I missed part of the testimony, why they would not honor 
that commitment?
    Mr. Allen. It is a cost that they have not acknowledged 
historically. They have currently been reviewing it and 
discussing it with IHS, who have paid it historically. IHS has 
always recognized that those costs associated with those kinds 
of expenses and they are separate from the indirect cost rate. 
Whether or not they are seriously considered or not is still in 
question. Their current proposal, in my opinion, doesn't 
reflect that in a meaningful way.
    But even if they would leave it in it, the proposal is 
taking programs and creating different kinds of programs out of 
the different operations and cutting our base in half. And 
saying, well, the half that we think is appropriate we will pay 
you 100 percent and the half that we don't think is 
appropriate, you are not getting any more contract support for 
those types of functions and activities. So they say in that 
category where you pay 100 percent we would also address 
contract support, is misrepresenting a base that the tribes are 
working on or working towards.
    It is an issue where they have need to move forward. We 
believe they need to adopt the practice that IHS has adopted 
and also move forward with the full funding request. We believe 
that the price tag is very reasonable.
    It is very irritating for us to get back comments from OMB 
or the administration or from the appropriation committees that 
it is an unacceptable cost when we know that it is a very 
reasonable cost to fully fund these costs.
    The Ramah factor, if I might add to this, with regard to 
the other Federal agency, at this point in time is not an 
overwhelming number. We calculated it to be right around the 20 
to 25 million dollar range. That is not an overwhelming number 
relative to this other Federal agency.
    Mr. Gover is correct. Fix it and address those OMB and 
those committees, those departments to pay that full funding, 
but it is not a cost that is going to break anybody's back. So 
it is very frustrating for us to hear that they can't afford to 
address the needs of the most impoverished communities in 
America.
    Mr. Inslee. This is very frustrating for many of us here, 
and we will be working with the chair and others to try to move 
ahead in this regard. We appreciate your help.
    Mr. Hayworth. I thank my colleague from the State of 
Washington.
    In closing, I want to thank the panel. Also just to say to 
President Allen, Mr. President, we will have a couple of 
questions. I listened with interest to your comment about the 
BIA proposals that in your words came out of left field. We 
have a couple of questions, and if you could respond in writing 
to those questions because we want to pursue that line of 
inquiry. But, given time limitations today, we won't go into it 
with a full airing here, but we would appreciate that response.
    With that, thanks to all of our panel members here and 
especially my dear friend, Governor Thomas, and we thank you 
for that.
    And we will welcome our third panel. And our last panel of 
witnesses includes Mr. Jim Wells, Director of Resources, 
Community and Economic Development Division of the GAO. That, 
for anybody in our audience that might not know the 
nomenclature or the acronym, stands for the General Accounting 
Office here in Washington, DC. And he is accompanied by Mr. 
Jeffrey D. Malcolm, Senior Evaluator from here in Washington, 
DC.
    So, with that, we will make the necessary changes in 
choreography and circumstances and logistics and welcome you 
front and center, Mr. Wells, for your statement. Once you get 
situated, we will be happy to recognize you and hear what it is 
that you have to say. It goes without saying, although we will 
reiterate, that we will be happy to take your complete 
testimony for the record and we know that you offer that, 
without objection. And so now, in the time that we have, we 
would be happy to let you orally state the highlights of said 
testimony. Mr. Wells.

STATEMENT OF JIM WELLS, DIRECTOR, ENERGY, RESOURCES AND SCIENCE 
ISSUES, RESOURCES, COMMUNITY AND ECONOMIC DEVELOPMENT DIVISION, 
   GENERAL ACCOUNTING OFFICE, WASHINGTON, DC; ACCOMPANIED BY 
              JEFFERY D. MALCOLM, SENIOR EVALUATOR

    Mr. Wells. Before I begin, I would just want to again 
introduce my colleague. With me is Mr. Jeff Malcolm, who is 
responsible for leading all of our Indian work here on the 
Indian contract support cost.
    My comments this afternoon will focus on the reasons for 
increasing the contract support shortfalls and the alternatives 
for funding them. Our June, 1999, report goes into a lot of 
detail about the calculation of contract support costs and the 
effects of the shortfalls on the tribes, which you have heard 
firsthand today. Shortfalls in contract support costs have been 
increasing each and every year in the last 5 years. Fiscal year 
1998 the combined BIA and IHS shortfall was $95 million.
    At your earlier hearing this year, much was made of the 
uncertainty of what actually was the shortfall. In my 32 years 
of experience, getting what should be a quick answer is never 
easy. Our staff worked closely with the staff of the two 
agencies involved, and we are happy for small victories in that 
we have found some situations where we were able to communicate 
and help eliminate some of the inconsistencies with the way 
that the two agencies were operating and determining costs.
    Contract support costs have increased mostly because of the 
tribes becoming more active and contracting more but also 
because the cost of administering these contracts has 
increased. The more you contract, the more it costs.
    As we learned, about half of the BIA and IHS programs are 
currently now under contract, about $2 billion of the $4 
billion program money that is out there. The contract tribe 
support costs are up to $375 million. Shortfalls clearly have 
increased because appropriations have not kept pace with the 
tribe's costs.
    Having sat through the two earlier panels and listening to 
your questions, it is clear that there is a great deal of 
frustration over this contract support cost issue and the self-
determination obligations. Shortfalls, particularly in the last 
year 5 years, are occurring each year. While the exact amount 
of the future contract support cost is difficult to predict 
today but given the continuing success of the tribes wanting to 
contract more, we conclude that costs can go up.
    Our report covers the facts, the figures, and the numbers 
because, quite frankly, that is what the General Accounting 
Office does best, as well covering and giving you information 
on the litigation issues and the moratoriums that the agencies 
have and what the tribes are dealing with. While we do not want 
to make recommendations on which alternatives are best, we do 
want to assist you, the Congress, in your deliberations on how 
to resolve this impasse.
    In light of the continuing shortfalls, I would like to 
discuss four alternatives for funding contract support costs. 
These alternatives are presented in no particular order.
    The first alternative is to fully fund contract support 
costs. The second alternative is to eliminate the full funding 
provisions currently in the Act and continue funding at the 
current level. The third alternative is to impose a limit or 
cap on tribal indirect costs. The fourth alternative is to 
consolidate program funding and contract support funding and 
allow the tribes to fully recover their indirect cost from this 
total amount.
    Mr. Chairman, if the desired outcome is to reimburse all 
tribes for all of their contract support costs, then clearly 
alternative one, full funding, or alternative number four, 
consolidated amount, would work. If the desired outcome is to 
deal with limited appropriations, then alternatives two, three, 
and four could work. A disadvantage is the alternatives two, 
three, and four would require amending the Act.
    I will stop here and just say that this program clearly has 
a legislative intent. It has estimated needs, but it does not 
have enough appropriated money. The challenge facing the 
Congress, and we in the General Accounting Office are trying to 
assist in your deliberations of this policy decision, is to 
find some common ground. I will stop there.
    Mr. Hayworth. Mr. Wells, we thank you for your testimony. 
We look forward to utilizing the resources of the General 
Accounting Office, and we will have questions for you that we 
will submit in writing, and in turn we would ask for your 
responses in writing.
    Mr. Wells. Be glad to.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T0802.050
    
    [GRAPHIC] [TIFF OMITTED] T0802.051
    
    [GRAPHIC] [TIFF OMITTED] T0802.052
    
    [GRAPHIC] [TIFF OMITTED] T0802.053
    
    [GRAPHIC] [TIFF OMITTED] T0802.054
    
    [GRAPHIC] [TIFF OMITTED] T0802.055
    
    [GRAPHIC] [TIFF OMITTED] T0802.056
    
    [GRAPHIC] [TIFF OMITTED] T0802.057
    
    [GRAPHIC] [TIFF OMITTED] T0802.058
    
    [GRAPHIC] [TIFF OMITTED] T0802.059
    
    [GRAPHIC] [TIFF OMITTED] T0802.060
    
    [GRAPHIC] [TIFF OMITTED] T0802.061
    
    [GRAPHIC] [TIFF OMITTED] T0802.062
    
    Mr. Hayworth. Again, I want to thank everyone who has 
joined us here today. We would note for the record that while 
we welcome so many who have stayed for the duration, we 
especially welcome Dr. Trujillo and thank him for staying to 
hear what has been said. We thank him for his testimony.
    Let me reiterate something that Chairman Young said 
earlier. Since the Committee is scheduled to hold another 
hearing at 2 p.m. which will be televised, we will forward the 
Committee's additional questions to the administration again 
with a deadline set for compliance.
    Last time this Committee submitted questions to the 
administration those representing the administration were 2 
months late in replying. However, since it was the first 
hearing, our chairman generally allowed the additional time.
    This time, Chairman Young asked me to reiterate should the 
administration not submit its answers on time, Chairman Young 
solemnly promises that he will take formal action to ensure 
that everyone complies with the time limit.
    We need to move forward with contract support costs. This 
Congress does not appreciate the administration's continued 
delays with responses to our concerns. Officially, the deadline 
for submitting the administration's answers to our questions 
will be September three, 1999.
    I would note, both for my time in the chair and the 
questions I addressed to Dr. Trujillo, to the extent that 
answers can be submitted by the end of this business week by 
Friday, they will be greatly appreciated.
    With that, thanks again to all who joined us.
    The Committee is adjourned.
    [Whereupon, at 1:17 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
         Response by Jim Wells to questions from the Committee
            United States General Accounting Office
                                       Washington, DC 20548
                                                  September 2, 1999
The Honorable Don Young
Chairman,
Committee on Resources,
U.S. House of Representatives.
Dear Chairman Young:
    Following your August 3 hearing on Indian contract support costs, 
at which we testified on our recently issued report Indian Self-
Determination Act Increases in Indian Contract Support Costs Need to Be 
Addressed (GAO/RCED-99-150), we received additional questions from the 
Committee and were asked to provide our responses for the record.
    Those questions, and our responses, are enclosed. Please contact 
Chet Janik at (202) 512-6508 or Jeff Malcolm at (303) 572-7374, if 
there is any other information on contract support costs that we might 
be able to provide.
            Sincerely yours,
                                                 Jim Wells,
                                        Director, Energy, Resources
                                                 and Science Issues

  GAO's Responses to Committee Questions on Indian Self-Determination 
                         Contract Support Costs
    1. Your report shows that the growth in new contracting activities 
with the Bureau of Indian Affairs (BIA) has held steady at less than $5 
million per year. The Indian Health Service (IHS) projects long-term 
growth of about $10 million for new contracting. Based on this 
experience and agency assessment, isn't it true that Congress can 
generally expect only a modest growth in contract support costs, and 
not the doubling hinted at in your report?
    On the basis of the growth of contract support costs over the last 
10 years, there should be modest growth each year in the future. 
However, in any given year, a decision by a tribe such as the Navajo or 
the Cherokee to contract a large program would have a substantial 
impact on contract support costs. Furthermore, even without large 
contracts, years of modest growth accumulate over time to substantial 
growth. In our report, we did not project an amount of growth in 
contract support costs for each year. The point we make is that only 
half of all programs are currently being contracted and if the other 
half are eventually contracted, costs will double if indirect rates 
stay the same.
    2. Tribes have experienced severe problems when other Federal 
agencies ignore the Office of Management and Budget (OMB) Circular-
dictated indirect rate set by the Department of the Interior Office of 
Inspector General. Would the GAO be willing to investigate the legal 
basis upon which these other agencies can ignore a rate that is set 
under a government-wide OMB circular, and recommend corrective action?
    The requirements of the Indian Self-Determination Act with respect 
to the reimbursement of contract support costs apply only to Self-
Determination Act contracts, which are administered by the BIA and the 
IHS. Other agencies administer their grants and contracts under other 
statutory authority, and the funding for these programs is based on the 
individual program's statutory authorization. For example, the Job 
Training Partnership Act limits the amount of funds that can be spent 
on administrative functions to 20 percent and the Head Start program 
limits the amount of funds that can be spent on administrative 
functions to 15 percent.
    The cost principles in OMB Circular A-87 are intended to set 
standards for cost allocation, not for determining how programs will be 
financed. Specifically, Circular A-87 states that the principles in the 
circular are ``for the purpose of cost determination and are not 
intended to identify the circumstances or dictate the extent of Federal 
or governmental unit participation in the financing of a particular 
program or project.'' Each indirect rate agreement also contains a 
specific limitation: ``Use of the rates contained in this agreement is 
subject to any applicable statutory limitations.''
    For these reasons, we believe there is no need for an investigation 
of this matter. Tribes consider this a longstanding problem, and the 
BIA and the National Congress of American Indians have recommended that 
other agencies should be required to allow tribes to fully recover 
their indirect costs.
    3. Why did you not study the issue of how IHS' calculation of 
direct contract support costs meets the intent of the law? Could you 
furnish a supplemental report after reviewing the matter with IHS and 
tribal financial experts?
    As part of our study, we did review IHS' policy for payment of 
direct contract support costs. The term appears to be derived from two 
provisions of the legislation authorizing contract support costs. It 
refers to (1) the reasonable costs of tribal contractor activities to 
assure contract compliance and management, which are not carried on by 
the respective Secretary in his direct operation of the program; and 
(2) direct program expenses for the operation of the contracted Federal 
program (25 U.S.C. 450j-1 (a) (2) (A) and (3) (A) (i)). In both cases, 
the burden falls on the agencies to determine what these costs entail. 
The statute does not specify how direct contract support costs should 
be determined. IHS is currently redrafting its policy, and from our 
work, we believe that IHS, which has responsibility for implementing 
these provisions under the statute, is appropriate in refining its 
system of paying direct contract support costs to tribes. For this 
reason, and because the policy is still in draft form, we do not 
believe further review or a supplemental report is necessary at this 
time.
    4. Your report suggests the appearance of a conflict of interest in 
the setting of tribal indirect cost needs by the same agency within the 
Interior Department that also audits how tribes spend their Federal 
funds. Without going into that particular issue, would you agree that 
there is a similar appearance of conflict within IHS when direct 
contract support cost needs are set by the same office (Division of 
Financial Management) that is also responsible for managing IHS' money? 
If so, would it be better for tribal contract support cost needs to be 
handled by a different branch of IHS or by the Area Offices? Is this a 
matter you could look into further?
    No, the Division of Financial Management does not appear to have 
the same type of conflict of interest that Interior's Office of 
Inspector General (OIG) appears to have for two reasons. First, the OIG 
was established as an independent audit agency and the Division was 
not. As a result, the OIG has to follow audit standards and guidelines, 
such as maintaining its independence, and the Division does not. 
Second, direct contract support costs are direct costs and under the 
Self-Determination Act, the BIA and IHS are responsible for managing 
and distributing direct program funds.
    Currently, several offices within the IHS establish direct contract 
support cost needs. The Area Offices assist tribes in developing their 
contract proposals and developing their contract support cost needs; 
these proposals are developed under the policy guidance and assistance 
of the Office of Tribal Programs, Self-Determination Services. The 
Division of Financial Management and the Office of Tribal Programs 
staff work together to review the cost proposals developed by the 
tribes for the purposes of passing out funding. The division is also 
responsible for maintaining data on the funding allocations and 
shortfalls for each of the tribes and is involved in the estimation of 
funding available to transfer from the agency to the tribes.
    Because we do not see a conflict of interest in the role of the 
Office of Financial Management in determining tribes' contract support 
cost needs, we do not believe there is a need for us to review this 
matter further.
    5. If future costs are predictable and modest, and if the proper 
incentives and controls are already in place to promote efficiency, why 
isn't Option #1 the preferred alternative?
    We express no opinion on which alternative, or combination of 
alternatives, should be implemented. That is a policy question that is 
up to the Congress as a whole to decide. Our main purpose in presenting 
various alternatives is to provide the Congress with some insights on 
the advantages, disadvantages, and cost implications of the various 
alternatives for funding contract support costs as the Congress 
deliberates on a permanent solution for funding these costs.
    6. Under Option #4, how do you suggest we deal with (a) inflation; 
(b) new contracts; and (c) ongoing contracts?
    (a) Spending for Indian programs is classified as discretionary 
spending. The level of spending for these programs is determined 
annually by the Congress and does not include mandatory adjustments for 
inflation. Under our fourth alternative, which would amend the Indian 
Self-Determination Act to eliminate the current funding mechanism and 
would replace it with a consolidated contract amount, contract support 
funding would continue to be classified as discretionary spending and 
issues such as inflationary increases would be handled annually through 
the appropriations process.
    (b) Under our fourth alternative, new and expanded contracts would 
be handled exactly as they are now for the first year. After the first 
year or some other agreed upon time frame when stability in the tribe's 
costs has been achieved, the program funding and contract support 
funding would be combined into a consolidated amount. For example, a 
tribe wishing to contract a program with a direct base of $100,000 and 
an indirect cost rate of 25 percent would receive an additional $25,000 
(over and above their program base of $100,000) to cover their indirect 
costs for the first year or some agreed upon time. Tribes contracting 
new programs in the future would be treated the same as tribes that are 
already contracting.
    (c) With ongoing contracts, if Congress increased the funding for a 
program, the fourth alternative would limit the increase in funding to 
the amount provided--no additional contract support costs would be 
provided, as they are now. The increase in funding would be split into 
direct and indirect costs. To continue the example above, assume a 
number of years have passed and the tribe's indirect cost rate has 
stabilized with a direct program base of $100,000 combined with the 
indirect costs of $25,000 to form a consolidated funding amount of 
$125,000. Next, assume that the program receives a $25,000 funding 
increase. Under the fourth alternative, this increase would be added to 
the existing $125,000 to form a new consolidated funding amount of 
$150,000. Of that total amount, 25 percent or $30,000, would be the 
tribe's indirect cost and the remaining $120,000 would be available for 
direct program costs.
    In comparison, again assume that there is a tribe with $100,000 in 
direct program base funds with an indirect cost rate of 25 percent, and 
therefore the tribe receives $25,000 for indirect costs. Under the 
existing funding mechanism required by the Indian Self-Determination 
Act, if that tribe receives a direct program increase of $25,000, then 
the tribe's base would increase to $125,000 and its indirect costs 
would increase to $31,250. The total funding under the current system 
would be $156,250 compared to $150,000 under Alternative #4.
    7. Would you agree that the current shortfall system ends up 
penalizing tribal self-determination by forcing curtailments that would 
obviously never occur if IHS and BIA continued to operate the programs 
themselves?
    While it would be easy to say yes, the issue is more complex than 
that. Tribes have experienced shortfalls. They stated that they have 
had to either cut back on their administrative costs or provided funds 
to pay for these shortfalls. However, BIA's and IHS' funding for 
administrative functions are also subject to annual appropriations just 
as the funding for contract support costs are. While we did not examine 
what steps BIA or IHS may take in the event that their annual 
appropriations were insufficient to fund their administrative 
functions, the agencies have to handle any shortfalls in their budgets.
    8. Why didn't you examine the Division of Cost Allocation's (DCA) 
indirect cost data and processes? Do you have any sense of the 
proportion that the DCA negotiated indirect costs bear to all indirect 
cost requirements associated with all IHS and BIA contracts and 
compacts?
    We did examine the DCA's rate negotiation process--this is 
discussed in appendix H of our report. DCA reviews cost proposals from 
about 50 rates with tribal organizations and a few tribes. The 
negotiators determine the allowability and reasonableness of the 
proposed indirect and direct costs and negotiate differences with the 
tribal organization or tribe. After a rate is negotiated, the DCA 
issues a rate notice to the tribe. This is the rate that is applied by 
the BIA and IHS to the tribe's self-determination contracts.
    We also examined the DCA's cost data, but did not include this 
information in the data in Chapter 2 because we did not combine the DCA 
data with data from the Department of the Interior's OIG. The effect of 
excluding this data from the data in chapter 2 is minimal because the 
DCA only negotiates about 50 rates, mostly with tribal organizations, 
and the aggregate indirect cost rate is about the same percent as the 
rates negotiated by the OIG--25 percent. The main difference between 
the rates negotiated by DCA and the OIG is that all the rates 
negotiated by DCA are provisional-final type rates while the rates 
negotiated by the OIG are predominantly fixed-with-carryforward rates.
    9. Can you tell us what the impact would be if Congress required 
all tribes to use the same method for determining their direct-cost 
base, and if all tribes used the fixed-with-carryforward method for 
calculating their rates? Is there any reason why this would not be fair 
and reasonable?
    The impact on tribes' costs would be zero if the same method was 
used to calculate indirect cost rates because tribes are reimbursed 
according to their costs, and it doesn't matter how these costs are 
expressed. Regardless of whether a fixed-with-carryforward rate or a 
provisional-final rate is used, a tribe should receive a rate that will 
allow it to recover their full costs. While mandating a single method 
would have no effect on cost, it prohibits tribes from choosing the 
rate most appropriate for their circumstances and accounting systems.

[GRAPHIC] [TIFF OMITTED] T0802.017

[GRAPHIC] [TIFF OMITTED] T0802.018

[GRAPHIC] [TIFF OMITTED] T0802.019

[GRAPHIC] [TIFF OMITTED] T0802.020

[GRAPHIC] [TIFF OMITTED] T0802.021

[GRAPHIC] [TIFF OMITTED] T0802.022

[GRAPHIC] [TIFF OMITTED] T0802.023

[GRAPHIC] [TIFF OMITTED] T0802.024

[GRAPHIC] [TIFF OMITTED] T0802.025

[GRAPHIC] [TIFF OMITTED] T0802.026

[GRAPHIC] [TIFF OMITTED] T0802.027

[GRAPHIC] [TIFF OMITTED] T0802.028

[GRAPHIC] [TIFF OMITTED] T0802.029

[GRAPHIC] [TIFF OMITTED] T0802.030

[GRAPHIC] [TIFF OMITTED] T0802.031

[GRAPHIC] [TIFF OMITTED] T0802.032

[GRAPHIC] [TIFF OMITTED] T0802.033

[GRAPHIC] [TIFF OMITTED] T0802.034

[GRAPHIC] [TIFF OMITTED] T0802.035

[GRAPHIC] [TIFF OMITTED] T0802.036

[GRAPHIC] [TIFF OMITTED] T0802.037

[GRAPHIC] [TIFF OMITTED] T0802.038

[GRAPHIC] [TIFF OMITTED] T0802.039

[GRAPHIC] [TIFF OMITTED] T0802.040

[GRAPHIC] [TIFF OMITTED] T0802.041

[GRAPHIC] [TIFF OMITTED] T0802.042

[GRAPHIC] [TIFF OMITTED] T0802.043

[GRAPHIC] [TIFF OMITTED] T0802.044

[GRAPHIC] [TIFF OMITTED] T0802.045

[GRAPHIC] [TIFF OMITTED] T0802.046

[GRAPHIC] [TIFF OMITTED] T0802.047

[GRAPHIC] [TIFF OMITTED] T0802.048

[GRAPHIC] [TIFF OMITTED] T0802.049

</pre></body></html>
